<html>
<title> - PROTECTING AMERICA'S HARVEST</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                      PROTECTING AMERICA'S HARVEST

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                CITIZENSHIP, REFUGEES, BORDER SECURITY,
                         AND INTERNATIONAL LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                       FRIDAY, SEPTEMBER 24, 2010

                               __________

                           Serial No. 111-150

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
58-410                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3453445b74574147405c5158441a575b591a">[email&#160;protected]</a>  

                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            DANIEL E. LUNGREN, California
MAXINE WATERS, California            DARRELL E. ISSA, California
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
STEVE COHEN, Tennessee               STEVE KING, Iowa
HENRY C. ``HANK'' JOHNSON, Jr.,      TRENT FRANKS, Arizona
  Georgia                            LOUIE GOHMERT, Texas
PEDRO PIERLUISI, Puerto Rico         JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               TED POE, Texas
JUDY CHU, California                 JASON CHAFFETZ, Utah
TED DEUTCH, Florida                  TOM ROONEY, Florida
LUIS V. GUTIERREZ, Illinois          GREGG HARPER, Mississippi
TAMMY BALDWIN, Wisconsin
CHARLES A. GONZALEZ, Texas
ANTHONY D. WEINER, New York
ADAM B. SCHIFF, California
LINDA T. SANCHEZ, California
DANIEL MAFFEI, New York
JARED POLIS, Colorado

       Perry Apelbaum, Majority Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

          Subcommittee on Immigration, Citizenship, Refugees, 
                 Border Security, and International Law

                  ZOE LOFGREN, California, Chairwoman

HOWARD L. BERMAN, California         STEVE KING, Iowa
SHEILA JACKSON LEE, Texas            GREGG HARPER, Mississippi
MAXINE WATERS, California            ELTON GALLEGLY, California
PEDRO PIERLUISI, Puerto Rico         DANIEL E. LUNGREN, California
LUIS V. GUTIERREZ, Illinois          TED POE, Texas
LINDA T. SANCHEZ, California         JASON CHAFFETZ, Utah
ANTHONY D. WEINER, New York
CHARLES A. GONZALEZ, Texas
JUDY CHU, California

                    Ur Mendoza Jaddou, Chief Counsel

                    George Fishman, Minority Counsel


                            C O N T E N T S

                              ----------                              

                       FRIDAY, SEPTEMBER 24, 2010

                                                                   Page

                           OPENING STATEMENTS

The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Chairwoman, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................     1
The Honorable Steve King, a Representative in Congress from the 
  State of Iowa, and Ranking Member, Subcommittee on Immigration, 
  Citizenship, Refugees, Border Security, and International Law..     3
The Honorable Howard L. Berman, a Representative in Congress from 
  the State of California, and Member, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................     6
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Ranking Member, Committee on the Judiciary.     7
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, Chairman, Committee on the 
  Judiciary, and Member, Subcommittee on Immigration, 
  Citizenship, Refugees, Border Security, and International Law..     8
The Honorable Daniel E. Lungren, a Representative in Congress 
  from the State of California, and Member, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................     9

                               WITNESSES

Carol M. Swain, Ph.D., Professor, Vanderbilt University
  Oral Testimony.................................................    12
  Prepared Statement.............................................    14
Mr. Phil Glaize, Chairman, United States Apple Association
  Oral Testimony.................................................    16
  Prepared Statement.............................................    19
Mr. Arturo S. Rodriguez, President, United Farm Workers of 
  America
  Oral Testimony.................................................    27
  Prepared Statement.............................................    29
Mr. Stephen Colbert, Host, The Colbert Report, Comedy Central 
  Studios
  Oral Testimony.................................................    32
  Prepared Statement.............................................    34


                      PROTECTING AMERICA'S HARVEST

                              ----------                              


                       FRIDAY, SEPTEMBER 24, 2010

              House of Representatives,    
      Subcommittee on Immigration, Citizenship,    
   Refugees, Border Security, and International Law
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 9:38 a.m., in 
room 2141, Rayburn House Office Building, the Honorable Zoe 
Lofgren, (Chairwoman of the Subcommittee) presiding.
    Present: Representatives Lofgren, Conyers, Berman, Jackson 
Lee, Waters, Sanchez, Gonzalez, Chu, King, Smith, Lungren, and 
Poe.
    Staff Present: (Majority) Ur Mendoza Jaddou, Subcommittee 
Chief Counsel; David Shahoulian, Counsel; Tom Jawetz, Counsel; 
Traci Hong, Counsel; Reuben Goetzl, Clerk; and (Minority) 
Blaine Merritt, Counsel.
    Ms. Lofgren. This hearing of the Subcommittee on 
Immigration, Citizenship, Refugee, Border Security, and 
International Law will come to order.
    We realize that there is great interest in the plight of 
migrant farm workers in America, but we will ask that the press 
actually pull back from the table so that we can observe all 
four of our witnesses. If the press cannot do so, they will be 
asked to leave the room.
    I would like to welcome our witnesses, Members of the 
Immigration Subcommittee and others who have joined us today 
for the Subcommittee's hearing on protecting America's harvest.
    The American agricultural sector has long suffered from a 
lack of available U.S. Workers to grow and pick America's 
fruits and vegetables. Even in today's tough economic climate, 
whether we like it or not, an insufficient and continually 
decreasing number of U.S. workers are willing to fill manual 
agricultural jobs. America's farms are dependent on a reliable 
workforce to produce our domestic food supply, and today's 
farms are struggling to stay in business as a result of current 
labor challenges.
    Today's hearing will explore the labor needs of our 
Nation's agricultural sector, its attempt to recruit U.S. 
workers for agricultural labor, the problems with our current 
visa program for agricultural workers, and potential solutions.
    One explanation for why American workers may now be 
unwilling to engage in manual farm labor when they were willing 
to do so decades ago may lie in our improving educational 
system. In the 1940's and 50's, a full half of the native-born 
workforce did not have a high school diploma. Last year, that 
number was 5.7 percent.
    In any event, the difficulty in recruiting native-born 
workers to work on farms has been highlighted by the United 
Farm Workers Take Our Jobs, Please Campaign. The Campaign 
invites unemployed Americans to use the UFW's assistance to 
obtain employment as farm workers. Yet according to the UFW, 
even in the period of high unemployment across all educational 
and socioeconomic sectors of our society, only seven U.S. 
workers have agreed to actually work in the fields as of today.
    I have been a long time advocate for farm workers and 
growers. When I was on the Santa Clara board of supervisors in 
the 1980's, I worked closely with the United Farm Workers and 
the Farm Bureau. I spent time on many farms.
    Just recently at the invitation of the UFW, I spent the day 
picking strawberries at a farm near my district. The UFW also 
invited me to spend the day picking vegetables at a farm in New 
York with Stephen Colbert. I want to thank UFW's President 
Arturo Rodriguez for bringing us together on this important 
issue.
    I would like to admonish the audience before I continue my 
statement that we need to maintain order and decorum throughout 
these proceedings, and to that end, I would like to remind all 
of the visitors in the audience that they should refrain from 
any manifestation of approval or disapproval of these 
proceedings or any other disruptive actions.
    If necessary, the Capitol Police are here to remove anyone 
who disrupts the hearing, but we certainly hope that won't be 
necessary.
    Part of what I have learned over the years is that without 
a sufficient U.S. labor force, U.S. farmers have increasingly 
relied on undocumented workers. According to the Department of 
Labor, over 50 percent of all seasonal agricultural workers are 
undocumented. Experts believe that due to underreporting, that 
number may actually be closer to 75 percent.
    Critics argue that the shortage of U.S. agricultural 
workers could be solved by simply increasing wages and working 
conditions. As a long time and ardent supporter of farm 
workers, I would like nothing better. But we must also face the 
reality that the Nation's growers compete with farmers from 
around the world in this increasingly globalized world.
    Increasing wages and benefits necessary in an amount 
necessary to attract millions of educated U.S. workers to the 
field would mean increased production costs that could render 
U.S. food products uncompetitive with imported products. 
American farms would then close, in turn, resulting in the mass 
offshoring of tens of millions of agriculture and related jobs.
    Indeed, this is already happening. Between 2007 and 2008, 
1.56 million acres of U.S. farmland were shut down. Many of 
these farms simply moved to Mexico where agricultural labor is 
more available. And when farms close, our country suffers. Not 
only do we lose the jobs filled by those who work in the 
fields, but we lose the millions of so-called upstream and 
downstream jobs connected to those jobs. Whether it is 
processing, packaging, transportation, seed production, 
manufacturing, accounting, advertising, these jobs are 
overwhelmingly filled by U.S. workers. Yet these jobs disappear 
too when farms are closed. Economists believe that for every 
farm job lost, the U.S. loses another 3.1 complimentary jobs.
    Aside from the loss of millions of jobs, the closure of 
American farms endangers the Nation's economy and national 
security. The truth is that our national security depends on 
our ability to produce a stable domestic food supply. Like oil, 
the more we rely on other countries for our food supply, the 
more we fall victim to an increased trade deficit, scarcity in 
times of drought, fluctuating external market prices, and 
political pressure. We would also increase the possibility of 
food-borne illness also and terrorist attacks through our 
Nation's food supply.
    The plain truth is that food security is national security. 
America cannot afford to stop producing its own food supply, 
and we need the labor force to do so.
    Today we will hear from our panel of witnesses to better 
understand this complex and very important issue for Americans, 
American jobs, our economy, and our national security.
    People in the media spotlight have a special ability to 
focus public opinion on an issue, whether it is Bono talking 
about Third World poverty or Angelina Jolie advocating for 
protecting children against human trafficking, the power of 
media figures to use their celebrity to focus attention on 
essential public issues is well-known and well-regarded.
    I am happy that Stephen Colbert of the Colbert Report has 
joined that group of celebrities who will use their media 
position to benefit others. As you can see from Mr. Colbert's 
written testimony, he has taken the time to walk in the shoes 
of migrant farm workers, and he urges reform of our immigration 
laws.
    I am happy that the United Farm Workers helped introduce me 
to Mr. Colbert, who I had not met before, so we could spend a 
day on a farm together. His actions are a good example of how 
using both levity and fame, a media figure can bring attention 
to a critically important issue for the good of the Nation.
    I appreciate all of our witnesses' efforts to be with us 
today and their leadership in this area, and I hope that 
together we can find solutions to these pressing problems.
    I would now recognize our distinguished Ranking Member, 
Steve King, for his opening statement.
    Mr. King. Thank you, Madam Chair. I appreciate being 
recognized.
    The thought that comes to mind as I listened to your 
opening statement is I wonder how the Eskimos got along all 
those centuries without fresh fruit and vegetables if it is a 
national security issue.
    However, before we start the testimony from the panel, I 
would like to focus my remarks on protecting American workers.
    Illegal immigration, the lack of enforcement of our 
immigration laws and today's jobs depression have formed a 
perfect storm for hurting Americans. The most important duty of 
this Subcommittee is that we ensure our Nation's immigration 
policy lifts up Americans, not holds them down.
    I find it hard to understand why some people carelessly 
claim that Americans won't do hard work. I find this claim 
insulting, as I am sure most hard-working Americans do. It is 
most insulting to those brave American soldiers who voluntarily 
risk their lives to defend our freedom and way of life every 
day, the men and women who take on terrorists in Iraq and 
Afghanistan, who trek for miles across the desert with 70 or 
more pounds of gear in 100-plus degree temperatures for about 
$8.09 an hour, and that includes the Marines.
    Make we should be spending less time watching Comedy 
Central and more time considering all the real jobs that are 
out there, ones that require real hard labor and don't involve 
sifting behind a desk. If we did, we would realize that every 
day, American workers perform the dirtiest, most difficult, 
most dangerous jobs that can be thrown at them, from crab 
fishermen who venture out into some of the most roughest and 
most dangerous waters in the world, to the Joe the Plumbers of 
the world who many days would prefer the aroma of fresh dirt to 
that of the sewage from American elitists who disparage them 
even as they flush. These are real Americans doing real jobs, 
tasks that simply must get done.
    When American workers are treated with respect and paid for 
the labor, they will do any job and they will outwork anyone on 
earth. America's spirit is hard-working, and so are the people 
that comprise this great Nation.
    Let's move on to agricultural. I represent a rural district 
made up mostly of farmers and farm communities, and the people 
of Iowa know what it takes to manage and effectively run a 
farm. One issue with attracting more American workers to 
seasonal agricultural labor is that most migrant workers are 
consigned to perpetual poverty. I wish that the United Farm 
Workers Union today understood, as Cesar Chavez clearly did, 
the devastating impact that illegal immigration has on American 
farm workers.
    Of course, it is argued by Tom Vilsack, President Obama's 
Secretary of Agriculture, that food prices would be three, four 
or five times more if it were not for illegal immigrant 
workers. This is blatantly false and can't be supported by any 
data, and he doesn't even bother to defend himself.
    Data from the Secretary's own Department of Agriculture and 
the Bureau of Labor Statistics show that labor costs only 
represent 6 percent of the price consumers pay for fresh fruits 
and vegetables. You could double the pay of workers and see 
only a 6 percent increase in consumer prices.
    Highly respected agriculture economist Phillip Martin of 
the University of California notes that if there was a 40 
percent increase in farm wages, the average household would 
spend only $8 more a year on fruits and vegetables, less than 
the price of a movie ticket. I am sure that most Americans 
would gladly pay $8 more a year in order to ensure a legal 
workforce.
    Cheap labor is just not worth illegal immigration's cost to 
Americans as workers or as taxpayers. The reality is employers 
hire desperate aliens who will work for much less than 
Americans, driving wages down and making it impossible for 
American workers to compete.
    As Ranking Member Smith has pointed out many times in the 
past, there are 8 million illegal immigrants in the workforce 
competing against the 15.4 million Americans who are officially 
counted as unemployed, which includes the 80 million who are 
simply not in the work force because they have dropped out and 
are no longer looking for jobs, and they are of working age.
    Americans have given up looking for those jobs because 
wages have been depressed and job opportunities eliminated by 
low skilled and very mobile immigration. The percent of 
teenagers who work has never been lower. Professor Carol Swain 
will testify today about the toll mass immigration has taken on 
minority communities.
    What is important to point out is that all of this started 
happening well before the recession. Professor George Borjas, 
now at Harvard University, did groundbreaking research on the 
impact of immigration in the 1980's and 1990's on low skilled 
American workers.
    Professors Andrew Sum and Paul Harrington and other 
researchers at the Center for Labor Market Studies at 
Northeastern University found in 2005 that, ``Given large job 
losses among the Nation's teens, 20 to 24 year olds with no 4-
year degree, Black males and poorly educated native-born men, 
it is clear that native-born workers have been displaced in 
recent years because of immigration.''
    It is amazing to me that amnesty advocates simply ignore 
the 80 million labor pool. We can either feed, clothe and house 
them, or put them to work to feed and clothe the world.
    The current economic crisis only magnifies the impact on 
American workers and families, but unless our immigration 
policies are changed, American workers and families will 
continue to be undermined even after the economy turns the 
corner.
    The Heritage Foundation found that the average household 
headed by an immigrant household without a high school degree 
receives over $19,000 in total government benefits more than 
they pay in taxes from Federal, State and local.
    Cheap labor. You know, I think about the day that I had to 
swim out into a sewer lagoon and dive into 9 feet of fluid to 
retrieve a pump. And when I think about the day that it was 20 
below and I am in the water fixing a waterline, and the warmest 
place there was in the water. The work I have done in my life 
in the construction business and the work that we have put our 
workers through in and the pride with which they take means 
that it is an insult to me to hear that Americans won't do this 
work.
    I can't think of a job that I have not been willing to do, 
and I can't think of a employee that I have had in over 28 
years that refused to do the work that was necessary. Americans 
will do that work, but they wanted to be paid a respectable 
wage for it.
    I look forward to the testimony, Madam Chair, and I yield 
back the balance of my time.
    Ms. Lofgren. The gentleman yields back.
    With the agreement of the minority, we are recognizing the 
author of the AgJOBS bill, Mr. Berman, for his statement, and 
then Mr. Smith and Mr. Conyers will give their opening 
statements.
    Mr. Berman.
    Mr. Berman. Well, thank you very much, Madam Chair, and 
thank you very much for holding a hearing which perhaps like 
few others will highlight the conditions of migrant farm 
workers in this country and turn attention to this critical 
issue.
    I thank both the Chair and Ranking Member of the full 
Committee for allowing me to go. This is an issue that I have 
been focused on for 40 years. In the last 10 years of each 
session, I have introduced bipartisan legislation to try and 
deal with this issue known as AgJOBS.
    Unfortunately, because I Chair another Committee, I have a 
hearing at 10 o'clock, and so I appreciate the courtesies 
extended to let me jump in line here. I am going to forego my 
prepared opening statement, but I simply must respond to the 
comments of the Ranking Member, my friend, the Ranking Member, 
on this particular issue.
    There is nothing that the Chair said, there is nothing 
implicit in the Take Our Jobs Campaign, explicit or implicit, 
that said Americans aren't doing hard work. And if the 
gentleman from Iowa were deeply concerned about the conditions 
on the farms and the wages, I would have noticed more activity 
to ensure that a number of the laws that apply to all other 
workers in America apply with equal force to the people who 
pick our fruits and vegetables in this country. I would see an 
effort to push greater appropriations and greater funding for 
people to monitor the working conditions on our farms. I would 
see an effort to try and get the rights that all other workers 
have to collective bargaining extended to farm workers, who are 
excluded from our national collective bargaining legislation.
    The fact is that while Americans over and over again have 
shown both their courage and their willingness to undertake 
terribly difficult jobs, jobs that I would dare to say that 
people on this podium, including myself, would be very 
reluctant to take, study after study, including studies at the 
time of welfare reform where huge numbers of people were going 
to be forced off of the welfare rolls and in counties where 
unemployment was two or three times the average of the country 
generally, people would rather have no income and no welfare 
than take the back-breaking jobs that the migrant farm worker 
has to do every single day.
    There is a problem here. You can try and cheap-seat it all 
you want, but we know that were it not for immigrant farm 
workers in this country, there would be no seasonal fresh fruit 
and vegetable industry.
    I join the gentleman in wanting better wages and better 
working conditions, and we should do everything we can to try 
and improve that. But the facts are the facts. Study after 
study has demonstrated that these jobs are not taken by U.S. 
workers, even when unemployed, even when having no other 
significant means of support, and no rhetorical flourishes can 
hide that fact.
    I commend the gentlelady for holding this hearing. I want 
to pay a special recognition to my dear friend for a number of 
years, the president of the United Farm Workers union, Arturo 
Rodriguez, and the other witnesses as well, and I apologize for 
not being to stay. I hope to come back when my hearing is over, 
but apologize for not being here for the entire hearing.
    I yield back.
    Ms. Lofgren. Thank you, Mr. Berman.
    We would now recognize the Ranking Member of the full 
Committee, Mr. Smith, for his opening statement. He will be 
followed by Mr. Conyers and then just to keep it even, we will 
invite Mr. Lungren to have an opening statement and other 
Members will be invited to submit opening statements for the 
record.
    Mr. Smith.
    Mr. Smith. Thank you, Madam Chair. American workers face 
tough economic times. With unemployment almost 10 percent for 
the first time in a generation, jobs have become scarce and 
millions of families are hurting.
    The Pew Hispanic Center estimates there are more than 7 
million illegal workers in the United States. Alexander 
Aleinikoff, Clinton administration INS official and now U.N. 
Deputy High Commissioner For Refugees calls it a myth that 
there is little or no competition between undocumented workers 
and American workers.
    This competition has had devastating effects on the most 
vulnerable of Americans. Over 32 percent of native-born workers 
without a high school degree are either unemployed, forced to 
work part-time, or too discouraged to even look for work. For 
native-born Hispanics without a high school degree, the rate is 
35 percent. For native-born African Americans without a high 
school degree, the rate is 43 percent.
    We could make millions of jobs available to American 
citizens and legal immigrants if the Federal Government simply 
enforced our immigration laws. About half of agricultural 
workers are illegal immigrants, so that means that a 
substantial number of legal workers labor in the fields, 
perhaps as many as half. Certainly even more would take these 
jobs if the wages and working conditions were better.
    The most effective means we have to save jobs for Americans 
are U.S. Immigration and Customs enforcement work site 
enforcement actions. Each time they detain and deport an 
illegal worker, they create a job opportunity for an American 
worker. Each time the Department of Justice sanctions an 
employer, it sends a clear message that the employment of 
illegal workers will not be tolerated.
    Unfortunately, this Administration is turning its back on 
American workers. Work site administrative arrests have fallen 
79 percent since 2008. Criminal arrests have fallen 62 percent. 
It is hard to conceive of a worse time to cut work site 
enforcement efforts by more than half, and yet that is what the 
Obama administration has done.
    The Department of Homeland Security will tell you that they 
have increased the number of work site audits of employers. 
Employers consider the small fines just the cost of doing 
business. And what happens to the illegal workers? They walk 
down the street and take another job that could have gone to an 
American worker.
    Citizens and legal immigrants should not be forced to 
compete with illegal immigrants for scarce jobs. The Obama 
administration should put the interests of American workers 
first.
    Let me point out that one witness, Stephen Colbert, has 
shed some light on the issue of jobs Americans supposedly won't 
do. A few years ago when debating himself on his show, he 
asked, ``Don't we want to have cheap labor for all the jobs we 
don't want to do?'' He responded, ``Yeah, unless you are an 
American landscaper or an American construction worker.'' Then 
he added, ``But I am an American TV host. My job is safe.''
    Millions of Americans wish they didn't have to compete with 
cheap foreign labor and had such a safe job. Unfortunately, 17 
million American workers are out of job or have given up 
looking for work. It is no laughing matter to pretend that 
Americans don't want jobs. Pay them more if needed, but don't 
insult American workers by telling them that the government 
cares more about illegal workers than U.S. citizens.
    Thank you, Madam Chair. I yield back.
    Ms. Lofgren. The gentleman yields back.
    Mr. Conyers will be recognized for any opening statement he 
may wish to give at this time.
    Mr. Conyers. Thank you, Madam Chairman.
    This is so important here. I would like to propose to my 
good friend the Ranking Member Steve King that we form this 
Committee so that we can get everybody to work very quickly. 
Between you and I we could probably recruit hundreds of 
thousands of people and solve this problem, even though the 
farm workers couldn't do it, and Senator Feinstein wasn't too 
successful. You say it is pretty easy. So I would like to work 
with you on this. What do you say?
    Mr. King. Mr. Chairman, I appreciate your yielding to me. I 
actually recruited farm workers and hired them and paid them. 
So what I had to do was raise the wages and benefits in order 
to attract people. I know that people are migrant. The Okies 
went to California for jobs. So if you offer the wages and the 
market and demand will provide the value, then the workers will 
show up. The legal workers will show up.
    Mr. Conyers. So the answer is yes?
    Mr. King. I would be happy to do that. Hopefully we can 
consider that labor is a commodity, like corn or beans or 
tomatoes, and that the supply and demand establishes its value 
in the marketplace.
    Mr. Conyers. And you wouldn't have any objection to them 
being organized, members of a union?
    Mr. King. I think here in America, if you want to market 
your skills and you are a legal worker, you do it the way you 
best can market your skills.
    Mr. Conyers. Well, fine. Thanks a lot. I will see you after 
the hearing and we will get started.
    Mr. King. I look forward to that, Mr. Chairman.
    Mr. Conyers. And now to Stephen Colbert, who I enjoy and 
have for many years, I am so happy that you helped us fill the 
room. I haven't seen this many cameras since when, Madam Chair? 
It has been awhile.
    Mrs. Lofgren. Maybe it was impeachment. It has been a long 
time since we have had this kind of coverage.
    Mr. Conyers. That is a haunting remembrance.
    Now, here is what I suggest so that our Republican 
colleagues can--we can get to the bottom of this. Mr. Colbert 
has presented us with a fine statement. It will be entered into 
the record. He has got a huge march coming on October 30, 
Saturday, here in Washington, which many people are going to be 
at I know. I have got a very good feeling about that. I will be 
busy working in Michigan trying to turn out the vote. We have 
been having a very low voter turnout, so that is the only 
reason I won't be with you in the march.
    But I would like to recommend that now that we have got all 
this attention, that you excuse yourself and that you let us 
get on with the three witnesses and all the other Members 
there. We are sure it will be shown on the show to night, and 
maybe Monday, I don't know. You run your show, we run the 
Committee. But what do you say to that, Stephen?
    Mr. Colbert. I am sorry, what was the question?
    Mr. Conyers. You didn't hear the question?
    Mr. Colbert. I don't understand the question.
    Mr. Conyers. You don't understand the question. The 
question was----
    Mr. Colbert. You are asking me not to talk?
    Mr. Conyers. No, I am not asking you not to talk. I am 
asking you to leave the Committee room completely and submit 
your statement instead.
    Ms. Lofgren. Mr. Chairman, I am wondering, Mr. Colbert's 
microphone isn't on and he can't be heard, but whether, having 
posed the question, we could listen to Mr. Lungren, and Mr. 
Colbert can ponder what you have said. I think many are eager 
to hear his comments.
    Mr. Conyers. That is fair enough.
    Mr. Colbert. Madam Chair, I am here at the invitation of 
the Chairwoman, and if she would like me to remove myself from 
the hearing room, I am happy to do so. I am only here at her 
invitation.
    Ms. Lofgren. That is correct.
    Mr. Conyers. Thank you very much. That is fair enough.
    Ms. Lofgren. The gentleman's time has expired.
    We will now hear from Mr. Lungren, who will make an opening 
statement, and then in the interests of proceeding to our 
witnesses, we will invite other Members to submit their 
statements for the record.
    Mr. Lungren.
    Mr. Lungren. Thank you very much, Madam Chair.
    I have been working on this issue for some 30 years. I 
confess that I was the Republican floor manager for the 
Simpson-Mazzoli bill. I thought at that time we had presented a 
reasonable solution to the problem of illegal immigration in 
this country. Unfortunately, while the legalization program, 
which was supposed to be a one-time only program was 
successful, there was a total failure with respect to 
enforcement. We also included in that law the SA-RAW program, 
Seasonal Agricultural Program and Replenishment Agricultural 
Worker program, both of which were riddled with fraud, which 
some of us suggested would happen when we opposed that section 
of the bill.
    Since that time and because of the lack of enforcement by 
the Federal Government, we have seen a continuation of the flow 
of illegal immigration in this country so that it is of a 
larger dimension than it was back in the 1980's. At the same 
time, we have the highest rate of unemployment, I believe in my 
adult lifetime, and in my district we have a higher 
unemployment rate than the State of California, which has a 
higher unemployment rate than all but two States. It is a 
severe problem.
    I have agriculture in my district and I have urban areas in 
my district. It seems to me that we ought to put all the facts 
on the table and understand that there are different segments 
of our economy, most of which, in my opinion, can successfully 
attract American workers.
    I see no reason right now for the presumed or the assumed 
lack of opportunity for African American young males in the 
construction trades. I see no evidence whatsoever that in the 
area of construction or landscaping there is a need for foreign 
workers. I think the intelligent thing for us to do is to 
establish laws which would allow us to look economic sector by 
economic sector and make a determination through our government 
as to whether or not there is a need for foreign workers.
    Now, I have never worked in the fields. I have worked on 
ranches, I have worked in construction, I have worked in 
shipyards. That is all tough work. I doubt it is as tough as 
the work I have seen the individuals in the farm fields do. It 
is really tough work.
    Being from California, I happen to believe there is 
evidence that we cannot attract sufficient Americans for 
agriculture purposes, and therefore I have always suggested we 
have to establish a program that works and that the American 
people determine through their elected officials the contours 
of, and then on an annual basis we make a determination as to 
how many people are needed in this country.
    But I am sorry my friend Mr. Berman has left, because one 
of the problems with his AgJOBS bill is that it grants people 
the path to citizenship who have been in this country illegally 
as a major tenet of this program. I don't think that is 
necessary.
    The reason I say this is this: There is an essential notion 
in our society, I believe from the time we were on school yards 
and even before that, that cutting in line is unfair. And I 
have to ask the number of people from the sending countries who 
followed the law and did not come into this country illegally 
but wish to come to this country, what does it say to them that 
they get put behind those that were not following the law?
    So all I would say is this: I think we can reach a 
satisfactory conclusion to this if we recognize that 
enforcement in the past was not there and therefore encouraged 
continuing illegal immigration; a failure to have a workable 
temporary worker program has caused some of the problem that we 
have; and I think thirdly, that you do not have to have an 
amnesty component in a program. There are other ways we can 
treat people humanely and deal with this problem without that. 
Because I fear, Madam Chair, that if we have that as a 
component of any legislation we have, the American people will 
not support it and we will fail to deal with a real challenge 
that we have confronting us today.
    Among all the issues that we have, we always see that we 
also have the backdrop of the threat of terrorism today. And I 
am not and never have suggested that most people who are here 
illegal are terrorists or there are a large number of them. All 
I say something the longer you have a porous border, the 
greater opportunity you have for terrorists to take advantage 
of that, and that is something we did not have to deal with, as 
we do today, we did not have to deal with in 1984-86 when we 
were dealing with the Simpson-Mazzoli legislation.
    Madam Chair, I thank you. I actually want to thank Mr. 
Colbert for bringing the attention to the question of workers 
in the field workers in the field. It is always tough to say 
anything to him because you are not sure what is going to 
happen in return or what will appear on TV, and I know he would 
never take anything out of context. So I guess I might as well 
quit while I am ahead.
    Ms. Lofgren. Thank you, and your time has expired.
    I would like to introduce the panel of witnesses before us, 
and I will start by introducing Dr. Carol M. Swain. Professor 
Swain is currently a professor of political science and 
professor of law at Vanderbilt University and a member of the 
James Madison Society of Princeton University. She received her 
bachelor's degree from Roanoke College and her masters from 
Virginia Polytechnic Institute and State University. She holds 
a Ph.D. from the University of North Carolina at Chapel Hill 
and in 2000 she was awarded an MLS from Yale Law School.
    She specializes in race relations and immigration and is 
the author of several books, including her most recent, 
Debating Immigration, a collection of essays by Professor Swain 
and other scholars on contemporary immigration.
    Next I would like to introduce Phil Glaize. Mr. Glaze is a 
third generation fruit grower and former chairman of the U.S. 
Apple Association, a nonprofit membership association serving 
the interests of the entire American apple industry, and an 
active member of the Agriculture Coalition For Immigration 
Reform.
    U.S. Apple represents a $2 billion industry with over 7,500 
commercial growers nationwide. Mr. Glaize's family business 
grows, packs and ships apples for the fresh and processed 
markets and has been producing apples in Shenandoah and 
Frederick Counties in Virginia since the 1920's.
    It is my pleasure to introduce our third witness, Arturo 
Rodriguez. Since 1993, Mr. Rodriguez has served as the 
president of the United Farm Workers, the largest farm workers 
union in the United States, founded by Cesar Chavez. A veteran 
farm labor organizer, he became active with the UFW's grape 
boycott as a student in 1969. He holds a master's degree in 
social work from the University of Michigan and has worked for 
the UFW since 1973.
    Mr. Rodriguez has over 35 years of experience organizing 
farm workers, negotiating union contracts and leading farm 
workers across the country for fair wages and working 
conditions.
    Finally, it is my pleasure to introduce Stephen Colbert. 
Mr. Colbert is the host and executive producer of the Emmy 
award and Peabody award winning series on Comedy Central, The 
Colbert Report. The series won the Peabody Award for Excellence 
in Broadcasting in 2008 and has garnered a total of 15 Emmy 
nominations. Mr. Colbert and his writing team have won two 
Emmys for outstanding writing for a variety, music or comedy 
program.
    He recently traveled to an upstate New York vegetable farm 
to experience the life of a farm worker through the United Farm 
Workers Take Our Job Initiative, and he has also worked with 
the farm workers to try and publicize their Take Our Jobs, 
Please Campaign in the effort to highlight the shortage that we 
face.
    Now, each of you has prepared a written statement and that 
statement, those written statements, will be made part of our 
official record. At this point, we would like you to summarize 
your statement in about 5 minutes.
    There are little machines on the table. You can see right 
now they are green. When 4 minutes is up, they will turn 
yellow, and when 5 minutes is up, it will be red. At that 
point, we would like you to conclude, not mid-sentence, but sum 
up so that all of the witnesses can be heard and also so that 
Members of the Committee will have an opportunity to ask their 
questions.
    First we will go to you, Dr. Swain, for your testimony.

              TESTIMONY OF CAROL M. SWAIN, Ph.D., 
                PROFESSOR, VANDERBILT UNIVERSITY

    Ms. Swain. Good morning. Thank you for allowing me to 
testify on this important issue. I speak today on behalf of 
millions of Americans who would like to see immigration laws 
vigorously enforced.
    I contend that America does not have a shortage of 
agricultural workers. Instead, we have a manufactured crisis by 
some who would like to ensure a steady supply of cheap labor, 
and in some cases, labor that bypasses also the H-2A and H-2B 
visa program. The H-2A program is for agricultural workers. The 
H-2B program is for non-agricultural, mostly low-skilled 
workers.
    Labor economist Phillip Martin, who has conducted extensive 
studies of farm labor in the areas of fruit and vegetable 
production, has found rising production in crops and stagnant 
wages for the workers. Meanwhile, the cost of household 
expenditures on fresh fruits and vegetables has remained 
constant.
    If there were labor shortages for agricultural workers, one 
would expect to find rising wages and more attractive working 
conditions. One would not expect to find unemployment rates of 
10.8 percent in May and 7.9 percent in August. These 
unemployment figures indicate that there are native workers 
actively seeking employment in the sector that includes 
agricultural workers, forestry, fishing and hunting.
    The majority of agricultural workers have less than a high 
school education. They work under the most strenuous 
conditions. Consequently, there is a high turnover rate among 
these workers. Agricultural workers often leave the farms for 
other low wage-low skill occupations. There they compete 
directly with low-skilled Americans for a dwindling supply of 
low wage jobs.
    The UFW's humorous Take Our Jobs Initiative entirely or 
perhaps deliberately misses the point. America cannot continue 
to bring in low-skilled guest workers to compete with the most 
disadvantaged Americans, the poor Whites, the Blacks, the legal 
Hispanics and other people that are here legally. Nor can it 
continue to turn a blind eye to illegal immigration.
    Often surplus labor that starts in the field migrates into 
other industries. Without surplus labor, employers would be 
forced to pay higher wages and many would be forced to improve 
substandard working conditions. Instead of paying $8 or $9 per 
hour, employers might be forced to pay $12 or $13. Phil Martin 
shows that an increase in the wages of farm workers would not 
substantially increase the average family's food bill. He 
estimated that the average family's food bill would rise about 
$8 a year.
    The Take Our Jobs Initiative misses the fact that in some 
parts of the country, native workers have respectfully worked 
alongside immigrants. Yesterday, I had a conversation with a 
businessman from Nashville who ran a 1-year experiment in 
Helena, Arkansas, involving sweet potato planting and 
harvesting.
    Mr. Don Kerr of Kerr Industries invested over a quarter 
million dollars of his own money to help unemployed Americans 
get jobs in the fields in an area of the country where 
unemployment is around 40 percent for African Americans. His 
experiment involved H-2A workers, the agricultural workers that 
here on visas, and native-born Blacks, who were picked up from 
a central location. They were transported to the job site. They 
were provided with bathroom and lunchroom facilities and a 
decent wage.
    Mr. Kerr saw no differences in the quality of the work 
provided by the native-born Black American workers, and he 
concluded that American workers will do farm work if they had 
transportation and decent working conditions. Even though he 
had a program that was providing jobs for unemployed Americans, 
he could not get State or Federal agencies to make an 
investment in the program.
    He would like to see an independent farm service company 
created to stand between the workers and the growers. The 
agency would hire the workers, provide transportation in air 
conditioned buses, bathroom and lunch facilities, and would 
serve as a buffer between the agricultural workers and the 
growers.
    The UFW's Take Our Jobs Initiative, in my opinion, has not 
made a serious effort to recruit American workers. This is a 
publicity stunt.
    We need to reform immigration. The rapid influx of cheap 
labor from foreign countries creates an oversupply of labor 
that works against the interests of native workers. It 
depresses our wages, it reduces our opportunities, and it 
deters employers from investing in native human capital.
    Compounding these problems, native-born Blacks and 
Hispanics suffer more than any other group. You can just look 
at their unemployment rates, and it is in my testimony. It is 
off the charts. This is a disgrace.
    Congress needs to do something about reforming immigration, 
and they need to protect the most disadvantaged Americans.
    Thank you.
    Ms. Lofgren. Thank you very much, Dr. Swain.
    [The prepared statement of Ms. Swain follows:]

                  Prepared Statement of Carol M. Swain

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Ms. Lofgren. We will turn now to Mr. Glaize for your 
testimony.

              TESTIMONY OF PHIL GLAIZE, CHAIRMAN, 
                UNITED STATES APPLE ASSOCIATION

    Mr. Glaize. Thank you, Chairwoman Lofgren, Ranking Member 
King, and distinguished Members of the Committee.
    I am honored to testify today on behalf of the U.S. Apple 
Association and the Agriculture Coalition For Immigration 
Reform.
    My name is Phil Glaize. I am a third generation fruit 
farmer with operations in Shenandoah and Frederick Counties in 
Virginia. Depending upon the time of year, we employ from 30 to 
155 workers.
    The fact that I appear before you today as a farmer with 
Arturo Rodriguez, the president of the UFW, should send a very 
powerful message: American farmers and the farm workers have a 
common problem.
    Despite continued attempts at automation, apples still need 
to be manually pruned and handpicked. The work is physically 
demanding and a certain amount of skill is necessary. Apples 
bruise easily, and improper picking will greatly reduce the 
value of our crop.
    We need a reliable, skilled and legal workforce. Today, 
farmers are choosing between a reliable, skilled and illegal 
workforce or a bureaucratic unreliable H-2A program. Without a 
thoughtful Federal legislative solution, farms will fail. We 
will export U.S. jobs. We will import our food.
    Who is doing the work on America's farms? Government 
statistics tell us that hired farm workers are over 80 percent 
foreign born and over half of those are unauthorized. Private 
estimates say that has many as 75 percent are unauthorized. 
Only 2 percent of America's farm workers are coming in through 
the existing H-2A program.
    Many believe that native-born workers will harvest 
America's specialty crops. However, the UFW's Take Our Jobs 
Campaign is only the latest in a series of unsuccessful efforts 
in good and bad times in Michigan, in Washington, in California 
and elsewhere to recruit Americans into farm jobs. Those of us 
that are struggling to harvest our crops are not surprised that 
Take Our Jobs is only producing a handful of workers. It isn't 
about hourly wages.
    Farm workers can earn more per hour picking apples than 
flipping burgers or stocking shelves in a big box store. The 
average picker on my farm earns $93 for a 9 hour day. The 
better ones earn more. But like so many agricultural jobs, 
picking apples is highly seasonal. It is out in the weather, it 
is demanding.
    I do have a picking bucket full of apples here. I invite 
every Committee Member, please, come down, put it on, 
understand what it is like to fill that thing 150 times a day. 
You go up and down a ladder.
    Most in this room would probably argue that our immigration 
system is broken. Some growers are trying to use the H-2A guest 
worker program, but face huge administrative obstacles and 
uncertainty. Just last month, apple growers in the Northeast 
had a near disaster when decisions by the State Department and 
the U.S. citizenship and immigration services put applications 
of hundreds of Jamaican workers in jeopardy just days before 
the grower needed them to start harvest. Members of Congress 
intervened, and the workers arrived at the last moment. A few 
more days of inaction could have meant losses estimated at $95 
million for the affected growers.
    From a user standpoint, the H-2A program is a mess. The 
choice between using the dysfunctional H-2A program or hiring 
workers whose documents look good but may not be is untenable. 
In the U.S., we have a short window of a couple months to get 
about 200 million bushels of apples off the trees. As the 
apples ripen, there is about a 5-day window to pick them at the 
proper maturity. Different varieties and strains allows us to 
manage the harvest timing over the course of 8 to 10 weeks. A 
delay in arrival of workers has a domino effect that leads to 
overripe fruit, fruit on the ground and financial loss.
    What is most worrisome to me as a grower is the reality 
that we could lose a large portion or even a whole crop if 
willing and an able pickers are not available. At harvest time, 
all but the picking costs have been invested. Our lines of 
credit are fully utilized. We have a leveraged investment that 
must be converted to cash. If we lose apples to the ground due 
to a lack of pickers, we could easily be forced to liquidate 
part of the farm to pay our lenders. This can happen to me 
quickly and without warning. One year is all it will take.
    The threat of losing farms and all the jobs dependent upon 
them is real and worsening in the face of congressional 
inaction. At least 80,000 acres of high value vegetable 
production have left Arizona and California for Mexico. 
Seventy-seven percent of Texas vegetable producers report 
scaling back due to labor shortfalls. Florida tomatoes and 
oranges are moving to Mexico and Brazil.
    China has requested access to our market for fresh apples, 
and they already produce over one-half the world's apples. If 
the U.S. apple industry is starved for labor, the Chinese are 
ready to step in and supply our apples.
    In the face of a crisis retrieving lost production will not 
happen quickly.
    Specialty crop production is extremely risky. Average 
profitability doesn't really give a proper return, given the 
risk that we take. For most of us, the reasons we stay in it 
are not economical. A major life goal for me is to provide jobs 
for as many people as possible. I am compelled to be able to 
pass on our farm to someone who will take it. Labor shortages 
are not going to find me a willing buyer.
    It is a serious economic problem that Congress has not 
addressed for far too long. Now is the time. I am extremely 
supportive of AgJOBS legislation. Comprehensive reform may be 
too politically charged right now. Please focus on AgJOBS and 
get it passed.
    Thank you.
    [The prepared statement of Mr. Glaize follows:]

                   Prepared Statement of Phil Glaize

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               __________

    Ms. Lofgren. The gentleman's time has expired.
    We will turn now to Mr. Rodriguez.

         TESTIMONY OF ARTURO S. RODRIGUEZ, PRESIDENT, 
                 UNITED FARM WORKERS OF AMERICA

    Mr. Rodriguez. Good morning. I would like to thank 
Chairwoman Lofgren, Chairman Conyers, Ranking Member King, and 
all the Members of the Committee for holding this hearing and 
for inviting us. My name is Arturo Rodriguez, and I am 
president of the United Farm Workers of America.
    And joining with me today are five farm workers that I 
would like to ask them to stand up and then raise their hands 
when I mention their names.
    Isabel Rojas has 40 years working in the fields. She 
started at age 12. Rogelio Luna started at age 16, has 46 years 
working in the fields. Amparo Flores, started at 14, 33 years 
working in the fields. Teresa Serrano, started at 14, working 
43 years in the fields. Alfredo Zamora, 17 started working, and 
has 34 years working in the fields.
    Very proud to be with all of them here today.
    Today, across America, the harvest season is reaching its 
peak. More than a million men, women, and children are toiling 
in our Nation's fields, producing our fruits and vegetables and 
caring for our livestock.
    Most Americans have the luxury to operate in ignorance or 
denial about how the food we eat gets on our tables. 
Agriculture in the United States is dependent on a hardworking, 
dedicated, taxpaying, immigrant workforce. Three-quarters of 
all farm workers are born outside the country today. These are 
the facts.
    America needs these workers. Everyone in this room is 
directly sustained by their labors every day. If you had a 
glass of Florida orange juice with your breakfast this morning, 
it is almost certain the oranges that went into that juice were 
picked but unauthorized workers. If you had milk on your 
cereal, it is likely that the workers who milked the cows 
didn't have the right papers. When we sit down every day to 
give thanks for our many blessings, most of the food on your 
table has been harvested and cared for by unauthorized workers.
    There is another indisputable fact: The life of a U.S. farm 
worker in 2010 is not an easy one. Most farm workers live in 
poverty, endure poor working conditions, and receive no 
government assistance. Undocumented farm workers take jobs 
other Americans won't do, for pay other American workers won't 
accept, and under conditions other Americans won't tolerate.
    Who is to blame? It is not the farm workers' fault that 15 
States do not even provide the basic protection of workers' 
compensation if they are injured at work. It is not the farm 
workers' fault that, more than 70 years after Congress passed 
the National Labor Relations Act, farm workers still do not 
have a right to organize. It is not the farm workers' fault 
that, year after year, farm labor contractors violate the laws 
with impunity while the growers who employ the contractors 
avoid the responsibility for those workers.
    Our society places all the risk and cost associated with 
the seasonal industry, featuring millions of short-term jobs, 
on the backs of the worker. For example, if there is a freeze, 
as occurred many times recently in Florida, thousands of 
workers are left without work. There is no unemployment 
assistance for those workers during that particular period. 
Furthermore, if a worker is injured, oftentimes there is no 
real recourse, there is no access to worker compensation.
    So we, the United Farm Workers, initiated the Take Our Jobs 
campaign, and we did invite citizens and legal residents to 
apply for jobs on farms across the country to supply our homes, 
restaurants, and workplace cafeterias, including those in our 
Nation's capital, with the food that fuels the people of this 
great Nation.
    Since June the 24th, we received 8,600 inquiries through 
our Web site, takeourjobs.org, but only seven people have 
accepted those jobs on a full-time basis and continue to work 
in agriculture.
    Indeed, if we deported all undocumented farm workers here 
now, the government estimates U.S. agriculture would need to 
hire at least 1 million citizens or legal residents to replace 
the immigrant laborers. A mass deportation of agriculture 
workers would cause the collapse of the agricultural industry 
as we know it. And we feel that would have a severe impact on 
maintaining a very much-needed industry in our society today, 
as well as providing American consumers with safe food.
    We continue our work. We urge that AgJOBS be passed here by 
the Congress, that you seriously look at that and giving legal 
status to those form workers that are here today. The growers, 
the employers, the agricultural industry is asking for a secure 
farm labor force. We think it is the obligation of this 
Committee, as well as this Congress, to take action immediately 
on that issue.
    Now is the time for Congress to acknowledge its role in 
creating what exists today as our current farm labor crisis and 
to offer a real and lasting solution. It is time to acknowledge 
the dignity of the current farm labor workforce and ensure the 
safety and abundance of America's food supply by passing the 
AgJOBS bill. A failure to do so would be both a human and 
economic tragedy.
    Thank you very much.
    [The prepared statement of Mr. Rodriguez follows:]

               Prepared Statement of Arturo S. Rodriguez

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Ms. Lofgren. Now we will turn to our----
    Mr. Conyers. Madam Chairman, could I just say that, after 
listening to Dr. Carol Swain, I withdraw my previous request 
that I had made to Stephen Colbert.
    Ms. Lofgren. Thank you Mr. Chairman.
    And we will turn now to Mr. Colbert for his 5 minutes of 
testimony.

              TESTIMONY OF STEPHEN COLBERT, HOST, 
           THE COLBERT REPORT, COMEDY CENTRAL STUDIOS

    Mr. Colbert. Good morning. My name is Stephen Colbert, and 
I am an American citizen. It is an honor and a privilege to be 
here today.
    Congresswoman Lofgren asked me to share my vast experience 
spending 1 day as a migrant farm worker. I am happy to use my 
celebrity to draw attention to this important, complicated 
issue. And I certainly hope that my star power can bump this 
hearing all the way up to C-SPAN1.
    As we have heard this morning, America's farms are 
presently far too dependent on immigrant labor to pick our 
fruits and vegetables. Now, the obvious answer is for all of us 
to stop eating fruits and vegetables. And if you look at the 
recent obesity statistics, you will see that many Americans 
have already started.
    Unfortunately, my gastroenterologist, Dr. Eichler, has 
informed me in no uncertain terms that they are a necessary 
source of roughage. As evidence, I would like to submit a video 
of my colonoscopy into the congressional record.
    Now, we all know there is a long tradition of great nations 
importing foreign workers to do their farm work. After all, it 
was the ancient Israelites who built the first food pyramids. 
But this is America. I don't want a tomato picked by a Mexican. 
I want it picked by an American--then sliced by a Guatemalan 
and served by a Venezuelan in a spa where a Chilean gives me a 
Brazilian.
    Because my great-grandfather did not travel across 4,000 
miles of the Atlantic Ocean to see this country overrun by 
immigrants. He did it because he killed a man back in Ireland. 
That is the rumor. I don't know if that is true. I would like 
to have that stricken from the record.
    So, we do not want immigrants doing this labor. And I agree 
with Congressman King, we must secure our borders. Of course, I 
am sure Arturo Rodriguez is saying, ``Who, then, would pick our 
crops, Stephen?'' First of all, Arturo, don't interrupt me when 
I am talking; that is rude. Second, I reject this idea that 
farm work is among the semi-mythical jobs that Americans won't 
do. Really? No Americans?
    I did, as part of my ongoing series ``Steven Colbert's 
Fall-Back Position,'' where I try other jobs and realize that 
mine is way better. I participated in the UFW's Take Our Jobs 
campaign, one of only 16 people in America to take up the 
challenge. Though, that number may increase in the near future, 
as I understand many Democrats may be looking for work come 
November.
    Now, I will admit, I started my workday with preconceived 
notions of migrant labor. But after working with these men and 
women, picking beans, packing corn for hours on end, side by 
side, in the unforgiving sun, I have to say--and do I mean this 
sincerely--please don't make me do this again. It is really, 
really hard.
    For one thing, when you are picking beans you have to spend 
all day bending over. It turns out--and I did not know this--
most soil is at ground level. If we can put a man on the moon, 
why can't we make the Earth waist-high? Come on, where is the 
funding?
    This brief experience gave me some small understanding of 
why so few Americans are clamoring to begin an exciting career 
as a seasonal migrant fieldworker. So, what is the answer? Now, 
I am a free-market guy. Normally, I would leave this to the 
invisible hand of the market. But the invisible hand of the 
market has already moved over 84,000 acres of production and 
over 22,000 farm jobs to Mexico and shut down over a million 
acres of U.S. farm land due to lack of available labor, 
because, apparently, even the invisible hand doesn't want to 
pick beans.
    Now, I am not a fan of the government doing anything. But I 
have to ask, why isn't the government doing anything? Maybe 
this AgJOBS bill would help. I don't know. Like most Members of 
Congress, I haven't read it. But maybe we could offer more 
visas to the immigrants, who, let's face it, will probably be 
doing these jobs anyway.
    And this improved legal status might allow immigrants 
recourse if they are abused. And it just stands to reason to me 
that, if your coworker can't be exploited, then you are less 
likely to be exploited yourself. And that, itself, might 
improve pay and working conditions on these farms, and 
eventually Americans may consider taking these jobs again.
    Or maybe that is crazy. Maybe the easier answer is just to 
have scientists develop vegetables that pick themselves. The 
genetic engineers over at Fruit of the Loom have made great 
strides in human-fruit hybrids.
    The point is we have to do something, because I am not 
going back out there. At this point, I break into a cold sweat 
at the sight of a salad bar.
    I thank you for your time. Again, it is an honor, a 
privilege, and a responsibility to be here. I trust that, 
following my testimony, both sides will work together on this 
issue in the best interest of the American people, as you 
always do.
    I am now prepared to take your questions and/or pose for 
pictures for the grandchildren. I yield the balance of my time. 
USA--number one!
    [The prepared statement of Mr. Colbert follows:]

                 Prepared Statement of Stephen Colbert

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

    Ms. Lofgren. Thank you very much.
    Thanks to all of the witnesses for their testimony.
    We will now begin questions of any of our witnesses. And we 
will begin--if Mr. Conyers is ready at this time, I will 
recognize Mr. Conyers for his questions for 5 minutes.
    Mr. Conyers. Thank you, Madam Chairwoman.
    I appreciate all the testimony of all the witnesses.
    I have to observe that Mr. Colbert's submitted statement 
was considerably different from the one that he presented, but 
that is a small detail.
    Dr. Carol Swain, you have written and studied about this 
subject quite a bit. And what I am interested in knowing is--
you spoke of a conversation you had with a grower who had a 
program to provide jobs to African Americans. But, in your 
written testimony, you state that he closed the program because 
he couldn't get Federal or State agencies to invest money.
    Now, what it sounds like to me is that the grower couldn't 
make it profitable without government investment, right?
    Ms. Swain. He invested a quarter of a million dollars of 
his own money. And he has worked with Blanche Lincoln and other 
Members of Congress on these agriculture issues. He is very 
much--this is a White man. He is very much involved----
    Mr. Conyers. Yeah, but he couldn't get enough money.
    Ms. Swain. He is very much involved in issues affecting 
people that are disadvantaged----
    Mr. Conyers. I know he is a good guy, but he couldn't get 
enough money, right?
    Ms. Swain. He could not get----
    Mr. Conyers. Is that right or wrong?
    Ms. Swain.--State, local, or Federal officials to invest in 
a program that was providing employment----
    Mr. Conyers. Right.
    Ms. Swain [continuing]. For Americans.
    Mr. Conyers. He couldn't get enough money, right?
    Ms. Swain. I don't understand your point.
    Mr. Conyers. You don't have to understand the point. Is it 
right or wrong?
    Ms. Swain. It is the responsibility----
    Mr. Conyers. He didn't get enough money, and that is why he 
went out of business, even though he invested a lot of his 
money, he was a good guy----
    Ms. Swain. He didn't go out of business. Kerr Industries is 
a very well-known, profitable company. He didn't go out of 
business. He is a Nashville businessman.
    Mr. Conyers. But he closed the program.
    Ms. Swain. He closed the program or he----
    Mr. Conyers. Why?
    Ms. Swain [continuing]. Sold the program in Arkansas.
    Mr. Conyers. Why did he close it?
    Ms. Swain. Because he could not get Members of Congress and 
State and local officials to be interested in the plight of 
disadvantaged Americans. And so he spends his energies in other 
places.
    Mr. Conyers. Do you really know that? I mean, I don't know 
anybody on this Committee and not too many in the Congress that 
aren't----
    Ms. Swain. Mr. Conyers, you should read my book----
    Mr. Conyers. Just a moment, please.
    Ms. Swain [continuing]. Especially the chapter on the Black 
Caucus and how they are not representing African-American 
interests on this particular issue.
    Mr. Conyers. Well, I am glad Maxine Waters isn't here 
today. Boy, oh, boy.
    Well, the point that really this discussion comes down to 
is that Dan Lungren, my dear friend from California, former 
attorney general, he doesn't like the Berman bill, but he 
doesn't have a bill. Steve King and I are forming a committee 
afterward to make sure that----
    Mr. Lungren. If the gentleman would yield, I do have a 
bill.
    Mr. Conyers. Oh, you do have a bill? Oh, thank you. What is 
the number? Well, we will find it. If you say you have one, 
your word is your bond.
    But Steve King and I are forming a committee to recruit 
people.
    And, Dr. Swain, now, you are from Vanderbilt. You must know 
that only 4 percent of the people doing this kind of stoop 
labor are African Americans, right?
    Ms. Swain. If Americans are----
    Mr. Conyers. Right or wrong?
    Ms. Swain [continuing]. Not doing these jobs, it is because 
they are not paying that much. The American workers are being 
undercut by the surplus of cheap labor. And there are people 
that prefer the cheap labor to paying a decent wage to American 
workers.
    Mr. Conyers. I presume you are saying ``yes.''
    Ms. Swain. I am not in a court of law, so I don't have to 
say ``yes'' or ``no.''
    Mr. Conyers. Oh, okay. And you are not under oath either. 
Well----
    Ms. Swain. But I do hope that you all would look at Mr. 
Kerr's suggestions. He has been a grower, you know, probably 
for 30 or 40 years, and he has the industry, and he has made 
some suggestions that I think that----
    Mr. Conyers. Well, have you looked at Mr. Rodriguez's 
suggestions?
    Ms. Swain. I have read everyone's testimony.
    Mr. Conyers. Well, what do you think of his? He is 
representing all those fine people with the red shirts that are 
sitting in back of you. What do you think of his position?
    Ms. Swain. I would like nothing better than to see farm 
workers well-paid and have decent working conditions.
    Mr. Conyers. Of course not--of course you do. But what do 
you think of Rodriguez's position? Are you in agreement with 
him?
    Ms. Swain. As long as there are unemployment figures, right 
now for August, 7.9 percent unemployment in the agricultural 
sector, I cannot agree that there is a shortage of workers. I 
do believe that----
    Mr. Conyers. Okay. I am going to close, Madam Chair.
    Ms. Lofgren. The gentleman's time has expired.
    Mr. Conyers. But could I invite you to join me and Mr. King 
on this committee since it is----
    Ms. Swain. I would love to work on these immigration 
issues----
    Mr. Conyers. Would you join our committee after the 
hearing?
    Ms. Swain [continuing]. Because I represent the American 
people. I am not a Member of Congress, but I represent the 
American people. I would love to work with you all.
    Ms. Lofgren. The gentleman's time has expired.
    Mr. Conyers. Thank you very much.
    Ms. Lofgren. And the Ranking Member has asked that we go 
next to Mr. Smith, who will be recognized for 5 minutes.
    Mr. Smith. Thank you, Madam Chair.
    Dr. Swain, thank you for your excellent testimony. And 
thank you for trying to answer all the questions that you have 
been asked.
    I have a couple of more questions, and the first is this: 
Why aren't the interests of the American people being better 
represented?
    Ms. Swain. Well, I think it is because the American people 
are not organized in lobbies. And most of them are trying to 
make a living, and so they are not in the pressure groups that 
seem to have the most influence over Members of Congress.
    Mr. Smith. Okay. And you mentioned or referred in your 
testimony to the danger of, sort of, what we might call ``chain 
guest workers.'' And if they come in and are allowed to stay, 
they are going to probably take another job at a higher pay as 
soon as they can. What are the consequences of that?
    Ms. Swain. Well, I mean, it is pretty clear that, in some 
areas of the country, African Americans, they work in hotels, 
they work in restaurants, they do yard work, they do that. 
There is a displacement of American workers. And whenever there 
is a crackdown, all of those jobs that we are told that 
Americans will not take, you see thousands of Americans--
hundreds of them lining up to take those jobs.
    And so, there are employers that would prefer immigrant 
labor because it is easier to exploit that labor.
    Mr. Smith. Okay. Thank you, Dr. Swain.
    Mr. Colbert, I would like to ask you a couple of questions, 
if I could.
    First of all, let me say that I think you made some good 
points, particularly about Democrats in November and 
particularly about the need for Members of Congress to read 
bills. I hope our Democratic congressional leadership was 
listening to you.
    It so happens that I am going to take that as an 
endorsement of the Republicans' pledge to Americans, because we 
have a provision in there that requires the leadership to give 
72 hours of notice of any bill that we have before we vote on 
it on the House floor.
    Let me give you a second opportunity to be a little bit 
more serious, because I know you do take this subject 
seriously. And I would like to ask you about your experience 
when you worked for 1 day in the field in upstate New York.
    How many other workers were there with you that day?
    Mr. Colbert. I didn't take a count. I am not good with 
math. I would say 50.
    How many people were out in the field?
    About 100 people were out there on the field.
    Mr. Smith. How many of those individuals were illegal, and 
how many were legal?
    Mr. Colbert. I didn't ask them for their papers, though I 
had a strong urge to.
    Mr. Smith. Okay. We assume that, if you don't know they 
were illegal, there might well have been legal workers there. 
Is that correct?
    Mr. Colbert. I don't know. I have no idea.
    Mr. Smith. Well, if you don't know, then it is hard to say 
that they were all illegal workers. My point being that if some 
of them were legal--and I presume they were--that does show 
that Americans are willing to do those jobs.
    Do you know how much those workers were paid?
    Mr. Colbert. I don't know--even if they were legal, I don't 
know if they were American citizens.
    Mr. Smith. You don't know what?
    Mr. Colbert. Even if they were legal, I don't know if they 
were American citizens.
    Mr. Smith. Okay. Well, my question was, do you know how 
much they were paid by the hour?
    Mr. Colbert. I don't know. I don't know. I didn't do a good 
enough job to get paid, so I can't compare my salary to anyone.
    Mr. Smith. Ah, right.
    Mr. Colbert. I was actually asked to leave.
    Mr. Smith. Gosh. Well, to me, how much they get paid is a 
pretty serious subject. And if they need to get paid more for 
us to attract American workers, we should, I think, do so.
    I know you are an expert comedian. I know you are an expert 
entertainer. I know you have a great sense of humor. But would 
you call yourself an expert witness when it comes to farm labor 
issues or not?
    Mr. Colbert. I believe I was invited here today by the 
congresswoman because I was one of the 16 people who took the 
United Farm Workers up on the experience----
    Mr. Smith. Right.
    Mr. Colbert [continuing]. Of having migrant farm work for a 
single day.
    Mr. Smith. Does that----
    Mr. Colbert. And if there are other Members of the 
Committee who did that, then there is no purpose of me being 
here.
    Mr. Smith. Right. Does 1 day in the field----
    Mr. Colbert. But if there isn't, then I might be able to 
give you some insight.
    Mr. Smith. Does 1 day working in the field make you an 
expert witness?
    Mr. Colbert. I am sorry? I can't hear you.
    Mr. Smith. Does 1 day working in the field make you an 
expert witness, do you think?
    Mr. Colbert. I believe 1 day of me studying anything makes 
me an expert at something.
    Mr. Smith. Is that to say, it is more work than you have 
ever done before, right?
    Mr. Colbert. Excuse me?
    Mr. Smith. It is more work than you have ever done before--
--
    Mr. Colbert. It is certainly harder work than this.
    Mr. Smith. Yeah. Is it harder work than the comedy show?
    Mr. Colbert. Excuse me?
    Mr. Smith. Is it harder work than the comedy show?
    Mr. Colbert. Absolutely harder than punditry.
    Mr. Smith. And you don't want to return to it. Okay.
    Mr. Colbert. I will never--I don't even want to watch 
``Green Acres'' anymore.
    Mr. Smith. Okay. Well, like I say, I am happy you are here.
    Mr. Colbert. Thank you.
    Mr. Smith. I do think you have made some good points. But--
--
    Mr. Colbert. By the way, I do endorse your policies. I do 
endorse Republicans. You asked me if I endorse Republican 
policies, and I do endorse all Republican policies without 
question.
    Mr. Smith. Okay. Including the requirement that Members 
have 72 hours before we vote on it?
    Mr. Colbert. Absolutely.
    Mr. Smith. Thank you for your endorsement of the ``Pledge 
to America.''
    And, Madam Chair, I will yield back. Thank you.
    Ms. Lofgren. The gentleman yields back.
    I would turn now to the gentlelady from Texas, Ms. Sheila 
Jackson Lee, for her 5 minutes of questions.
    Ms. Jackson Lee. Thank you very much, Madam Chair. This is 
a crucial hearing because I think it involves constitutional 
principles of the equality and justice that we demand in this 
Nation. And I thank the witnesses for their presence here 
today.
    I want to say to Dr. Swain--and I don't disagree with you--
that this Nation should not turn a blind eye to illegal 
immigration. In fact, we should engage. And, frankly, for 
almost a decade, in my tenure in this Congress, we have tried 
to fairly engage in the question of illegal immigration by 
putting forward a plan of comprehensive immigration reform that 
addresses the question of a process, if you will, of access to 
citizenship.
    Lamar Smith and I, over the years, have talked about the 
importance of providing a widespread view of Americans and 
creating jobs and ensuring that there is an investment in the 
skills of Americans. And so we probably don't disagree on that.
    We find ourselves, however, in the political climate where, 
if right was right and truth was truth, we could not find on 
this Committee a bipartisan pathway to be able to effectively 
deal with fixing the immigration system, doing some of the 
things that you have said, which means that we could, in fact--
Members of this side of the aisle have agreed that we could 
take some of those fees and invest in training, for example. We 
did that, training nurses, training farm workers maybe, 
training others that happen to be, as you have declared, people 
here in the United States.
    So we wish we could take up your challenge, because that 
would be the right thing to do. But we find ourselves in a 
dilemma where we can't get anyone that is on the other side of 
the aisle to look reasonably at the crisis that we face.
    To Mr. Colbert, let me say to you, your last sentence in 
your testimony you submitted is something I agree with: ``They 
say that you truly know a man after you have walked a mile in 
his shoes, and while I have nowhere near the hardships of these 
struggling immigrants, I have been granted a sliver of 
insight.''
    So I want to pose these series of questions, and start 
first with Mr. Rodriguez.
    Mr. Rodriguez, how do you rebut the comment that Dr. Swain 
made, that your effort was a bogus effort to try and find 
American workers to work in the farms of America?
    Mr. Rodriguez. Let me just first respond, thank you very 
much, Congresswoman Lee.
    We came up with this idea and this concept actually sitting 
down and meeting with some of the farm workers that I just 
introduced to you. We were trying to discuss how do we help 
sensitize and inform the American public about this particular 
issue in a way that everyone could hopefully better understand.
    And so, as a result of that, the workers came up with the 
suggestion, well, let's invite legal citizens, let's invite 
politicians, let's invite policymakers to come and work in the 
fields so they can understand that farm workers are not here 
and immigrant workers are not here to take away American jobs.
    So, as a result of that, after discussion, we came up with 
the idea of the Take Our Jobs campaign. And, consequently, we 
received a very interesting response from people, upon doing 
that. And when Mr. Colbert decided to also invite us to come on 
the show and talk about that, it further gave more visibility 
to that particular issue.
    Ms. Jackson Lee. But the question is, she said that you 
were not serious.
    Mr. Rodriguez. We are very serious. We wanted to prove a 
point.
    Ms. Jackson Lee. And so, you refute quickly that you were 
not serious. You worked hard, and continue to work hard? Is the 
program still in place?
    Mr. Rodriguez. We work very hard. We have people dedicated 
every day to listening to individuals that call into us, 
checking our Web sites, trying to assist----
    Ms. Jackson Lee. So you are serious about it----
    Mr. Rodriguez. We are extremely serious.
    Ms. Jackson Lee [continuing]. And you welcome workers.
    Mr. Colbert, when I spoke about the landscape of 
immigration reform, I take it that you have had enough 
experience that--are you speaking only to farm workers? Or do 
you see the value in America answering the call and concern of 
Dr. Swain and not turning a blind eye to immigration and 
looking at immigration comprehensively?
    Do you think it is long overdue for this Nation to pass a 
comprehensive immigration reform plan that looks at all aspects 
of those who are undocumented who are seeking an opportunity, 
particularly young people who have come here and are 
undocumented and need to access our colleges and schools?
    Mr. Colbert. I think there are way too many undocumented 
Mexican workers here in the United States doing jobs. And I 
think that we have ignored this issue for too long, and it is 
time to roll up our sleeves and face this issue, mano a--
whatever the Spanish word for ``mano'' is.
    Ms. Lofgren. The gentlelady's time has expired.
    Ms. Jackson Lee. Well, Madam Chair, let me just conclude by 
saying I appreciate Mr. Colbert, but I hope that this hearing 
will lead to the foundation for comprehensive immigration 
reform, which I truly believe is the underpinnings of what 
America is all about.
    Mr. Rodriguez, no job should be diminished--no job. And the 
workers that are behind you, their job is not diminished. And I 
think we can work alongside of each other and tell America that 
we are better working together.
    Ms. Lofgren. The gentlelady's time has expired.
    Ms. Jackson Lee. I yield back. Thank you, Madam Chair.
    Ms. Lofgren. Before recognizing Mr. Poe, I just would want 
to note for the Ranking Member that the Democratic rule is that 
all bills must be posted 72 hours in advance on the Internet.
    And I would yield now to Mr. Poe for his 5 minutes of 
questions.
    Mr. Poe. Thank you, Madam Chair.
    Since I have no life, I actually do read the bills, 
including the health care bill. And I also read the Arizona 
law, unlike some people in the Administration.
    But I want to thank you all for being here. It is always 
good to see a fellow Texan, Mr. Rodriguez, for being here, as 
well.
    There are several issues that I see: one, legal immigration 
versus illegal immigration, legal workers versus illegal 
workers. I think that the problem is the illegal workers. If 
the country needs more legal immigrants to work, that is an 
issue that needs to be solved. And the answer is not to just 
allow more illegals in the country. The answer is to solve the 
legal process to come here to work as a migrant worker. That 
seems to be the problem, I think, should be solved.
    The other issue I see is wages. Based on what your 
testimony, your written testimony is, a person that works as a 
worker in the field can make up to $300 or probably $360 a 
week. That varies from farm to farm. A person can draw 
unemployment in the United States as a citizen of up to about 
$390 a week. So, if Americans are unemployed and receiving 
unemployment and the wages are so low in the farm industry, 
they lose the motivation to work because people in the farm 
industry are underpaid, whether they are legal worker or 
illegal workers.
    And, as far as jobs that Americans won't do, I represent 
southeast Texas. I represent people that work offshore. And you 
talk about hard jobs, that is working offshore. Those hard jobs 
are a lot of jobs that are very tough for Americans to do. But 
they do that because they get compensated for the work that 
they do.
    So, low wages seems to be the issue here, not whether or 
not we should allow people to stay in the country or be in the 
country illegally. Low wages; fix the process to let people 
come in if we need those workers, but deal with the 14 million 
unemployed Americans, 4.5 million of which are drawing up to 
$390 a week unemployment for up to 99 weeks.
    Now, Dr. Swain, I want to go back to some of your testimony 
and ask you to, kind of, rectify and resolve these issues that 
I have just mentioned and see how--because I represent a great 
number of minorities in Port Arthur, Texas. Fourteen percent of 
them are unemployed in Port Arthur, Texas.
    And how would you see a system to create fair wages, 
compensated wages, wages where everybody is paying taxes, not 
just some people paying taxes? How would you see Congress 
moving in a direction regarding legal immigrants to work and 
also getting more Americans working?
    Ms. Swain. Well, the first thing I think that we need to do 
is, as I said before, enforce the existing laws and to put--the 
E-Verify program that the Federal Government already has--and 
many people are voluntarily signing up for that program--that 
program, if it was mandatory across the country, it would 
create opportunities for American workers. Because there are 
millions of illegal immigrants that are working, on the 
payrolls, that should not have jobs. These are jobs that should 
go to American workers.
    And so I think that we need to enforce the laws that are on 
the books and then see how much surplus labor we may need. If 
we have a labor shortage after we enforce our laws, then we 
need to look at the guest-worker programs and see how they need 
to be changed.
    I think it should be easier for people to come to the 
United States legally and that we should reward those that do 
it the right way, that come here legally, and not allow their 
interests, you know, to somehow be treated lss importantly than 
the interests of people who come here illegally, they seem to 
get the worst end of the deal. I have friends that are 
immigrants that are trying to do it the right way, and many of 
them feel like that they would get a better deal if they were 
to fall out of status and become illegal, rather than to try to 
do it a way that is legal.
    And I would like to respond to the comment about the Take 
Our Jobs initiative. The very fact that they named it ``Take 
Our Jobs'' is a deterrence, because it assumes--the name, 
itself, implies that the jobs belong to someone else. And so 
the immigrants are saying, ``Take our jobs.'' I don't know many 
people that would want to take a job that belonged to someone 
else.
    Mr. Poe. Mr. Rodriguez, let me ask you a generic question. 
In the farm working industry, approximately how many people 
working in the industry that are foreign nationals are legally 
here, illegally here? Can you give me a percentage?
    Mr. Rodriguez. Sure. Thank you very much, Mr. Congressman.
    The estimate is, by the Federal Government, Department of 
Labor, about 53 percent. Based on my own experience, after 
being out there all the time, probably more like 70 to possibly 
75 percent are unauthorized workers that are working in the 
agriculture workforce today.
    Mr. Poe. All right.
    Just one last comment. I agree with Dr. Swain that we need 
to fix the legal immigration system. It is too complicated; it 
takes too long.
    And, with that, I will yield back.
    Ms. Lofgren. The gentleman yields back. Thank you very 
much.
    And I will turn now to the gentlelady from California, Ms. 
Waters, for 5 minutes.
    Ms. Waters. Thank you very much, Madam Chairwoman. I find 
this hearing to be most interesting.
    And the question of whether or not immigrant workers are 
taking jobs from Americans and African Americans has been 
mentioned an awful lot here today. And I am so pleased to hear 
that so many people are interested in African Americans getting 
jobs.
    I am also interested in the fact that, all of a sudden, we 
are hearing discussion about increased wages, when one of the 
biggest struggles we have had in this Congress is increasing 
the minimum wage. And so, this is very enlightening to me, as I 
listened to some of the interest, particularly of some of my 
colleagues on the opposite side of the aisle.
    Let me just say this, that of course there are Americans 
and African Americans who would work on some of these jobs. But 
let me just assure you, for the people in my district, this is 
not a high priority for the kind of job they would like to 
have. I imagine very desperate ones would take some of these 
jobs for a limited period of time, you know, if it concerned 
their survival. But if I had to support subsidizing 
corporations to hire workers, I would not put my emphasis on 
farm labor. I would put my emphasis on construction jobs.
    For example, in my district, a lot of young people who are 
not well-educated ask for and seek out the opportunity to work 
on construction jobs. We had one program that was laying 
fiberoptics that many of the young people who did not have 
skills learned to do this kind of work.
    So, whether we are talking about in construction or 
communications industry, where training is available and 
possible, I would subsidize employers to increase those kinds 
of jobs.
    I would also subsidize employers to bring jobs from 
offshore back into the United States, where they would be in 
the inner cities and in the urban areas. Because this business 
of talking about transportation from urban areas to rural areas 
is just unreal. It just--it is not something that is workable.
    So I would like to focus a little bit on comprehensive 
immigration reform, because I think that is really what we 
should be talking about. And I would like to ask my friend, Mr. 
Rodriguez, who I have known for many years--and I am proud to 
say that I was in the California legislature when Howard Berman 
led the way on all of the reforms that we did for immigrant 
workers, working with Cesar Chavez. And I think he was one of 
the most profound organizers of our time.
    Let me ask you, in immigration reform, if we talk about 
allowing citizenship to be made available to farm workers, how 
would you frame that? Would you say that, if you have been here 
working without papers for 4 years, 5 years, 2 years, 3 years, 
10 years, you should be afforded citizenship? How would you do 
that?
    Mr. Rodriguez. Well, thank you very much, Congresswoman 
Waters.
    In fact, we do have a solution. And what the legislation 
that Mr. Berman and the other Member of the Congress, Adam 
Putnam, have put together and fashioned to deal with the 
agricultural industry specifically is that a worker that worked 
150 days in agriculture in the previous 2 years would be 
allowed to become part of the AgJOBS program, as we call the 
legislation.
    But farm workers would not get automatic legalization, as 
we talked about before. They would be put into a program of 
earned legalization, whereby they would have to continue 
working in agriculture for the next 3 to 5 years. In addition, 
they would be paying upwards of $500 million, overall within 
the entire group, of fines for being here and coming into the 
country undocumented. And----
    Ms. Waters. Let me just ask you quickly, because I want to 
get this in on comprehensive immigration reform.
    Mr. Rodriguez. Sure.
    Ms. Waters. Would you support significant fines for 
employers who break the law?
    Mr. Rodriguez. Once we get this settled and once we deal 
with this particular issue, yes, I think there should be an 
enforcement policy put into place to make sure that we don't 
have continued immigrants coming in that would violate those 
laws.
    Ms. Waters. Do you think there are some immigrants who 
should be deported for some reason, whether they are criminals 
or some other kinds of reasons?
    Mr. Rodriguez. If an immigrant has committed and violated 
serious laws here within our country, yes, that is a reason for 
their deportation at this time.
    Ms. Waters. And would you support in comprehensive 
immigration reform some way of keeping families together, where 
you have undocumented immigrants who have been here for a 
period of time, children were born here, they are legal, and at 
some point in time the mother or father may be faced with 
deportation? How would you deal with that?
    Ms. Lofgren. The gentlelady's time has expired, so we will 
ask him to answer.
    Ms. Waters. Thank you.
    Mr. Rodriguez. I would support any immigration reform, 
whether it is comprehensive or AgJOBS or the DREAM Act, that 
worked to keep families together. That is the basis of our 
society, to have families together. Immigrant families want to 
be together just like any other American family.
    Ms. Waters. Thank you, Madam Chair.
    Ms. Lofgren. Thank you.
    And we turn now to Mr. Lungren for his 5 minutes.
    Mr. Lungren. Thank you very much, Madam Chair.
    I just might respond, when you said that there is a 
Democratic caucus rule of a 72-hour notice, perhaps you ought 
to inform your leadership, since just 3 weeks ago I received no 
notice of a bill that contained part of a bill I had introduced 
to get rid of the 1099 requirement on small business that is in 
the health care bill. Our leadership was given 10 seconds' 
notice--10 seconds' notice.
    Ms. Lofgren. Would the gentleman yield?
    Mr. Lungren. Happy, if you can give me more than 10 
seconds.
    Ms. Lofgren. It is not a Democratic caucus rule. It is a 
House rule. And the measure that the gentleman is discussing 
was actually on the suspension calendar, which has a 
different----
    Mr. Lungren. Ah. Okay. So there is an exception to the 72-
hour rule----
    Ms. Lofgren. On the suspension calendar.
    Mr. Lungren [continuing]. So long as you are in command.
    Ms. Lofgren. Which requires a two-thirds votes, as you 
know.
    Mr. Lungren. I understand that. But let's just make it 
clear: Ten seconds is not 72 hours. And perhaps you ought to 
inform your leadership of that, rather than the caucus.
    I would like to ask Mr. Rodriguez this. If you estimate 
that 75 percent of those working in the fields are here 
illegally, 25 percent, I presume, are here legally. How are we 
able to attract that 25 percent? Since, presumably, they are 
subjected to the same price structure and working conditions as 
the others.
    Mr. Rodriguez. Well, thank you very much, Congressman.
    As I introduced the individuals that are here, there are a 
lot--there are tens of thousands of farm workers that are here 
legally, working here legally, that have been in agriculture 
for a long time, as the ones that I just introduced to you.
    And they have been here--they have worked hard. They work 
with the employers that they enjoy working with. They enjoy the 
work that they do, and they continue to do so. They have good 
wages where they work at. They have good benefits, medical 
plan, pension plan, vacations, paid holidays, like any other 
American worker here in this country. And so----
    Mr. Lungren. So are you telling us that the 25 percent that 
are successfully recruited to the agricultural fields are 
recruited successfully because they get appropriate wages and 
they get appropriate working conditions?
    Mr. Rodriguez. I think that is one factor. In addition to 
that, the employers that have unauthorized workers working with 
them also oftentimes want to see those employees continue 
working with them. They treasure those workers; they value 
those workers.
    Mr. Lungren. I realize that, but that is not my question. 
My question is--I am trying to work this thing out and I am 
trying to figure out, if your premise is that we don't have 
people going into the fields because Americans won't take those 
jobs, you then tell me that 25 percent of those people in the 
fields are Americans. And so my question is, how were we able 
to successfully attract them? And is it different than the 
conditions and wages available to the other 75? And if that be 
so, could we attract a larger number of Americans replicating 
what we do for that 25 percent that are Americans working in 
the field?
    Mr. Rodriguez. I think our solution is realistic right now 
and practical. The agricultural industry needs these workers 
now. They have a workforce that they have worked with now for 
many years. All we are asking is to give them the opportunity 
to have legal status in this country.
    Mr. Lungren. I understand that, but that is not my 
question.
    Mr. Rodriguez. And then, as a result of that, conditions 
will improve, wages will improve. The likelihood of American 
consumers having a good, safe food supply will also be secure.
    Mr. Lungren. Okay. Thank you, Mr. Rodriguez.
    And I would like to ask you both you and Mr. Glaize, is it 
an absolute essential to the AgJOBS bill that the people who 
would benefit from it on the workers' side are allowed to be on 
the path to citizenship and, thereby, be put in the front of 
the line of others who followed the law?
    Mr. Rodriguez. They are not going to be put in front of the 
line. Farm workers that would be included under AgJOBS would 
have to work in agriculture for the next--minimally, for the 
next 3 to 5 years in order to be qualified to even get a green 
card. They would not get a green card until after they have 
been able to demonstrate that they have continued to work in 
agriculture for a minimal--for a certain period of time. And 
then they will be able to get a green card, which does not put 
them in front of the line. It just gives them an opportunity 
then to go and file for----
    Mr. Lungren. Okay. Well, let me ask this question. One of 
the major sending countries is Mexico. How long does one have 
to wait in Mexico if one wants to get in line to get legal 
entry into the United States and work toward a green card?
    Mr. Rodriguez. I have no idea. I don't have any idea 
because the workers that I work with, unfortunately, come in a 
different way.
    Mr. Lungren. Well, but, see, that is the question of 
whether they are in the front the line or not. If people have 
to wait longer than 3 years or 5 years or 8 years or 10 years 
to get in line legally and you are saying that these folks 
qualify automatically, they are being put in the front of the 
line.
    Mr. Glaize, is it----
    Mr. Rodriguez. Well, I mean----
    Mr. Lungren [continuing]. Essential to your program----
    Mr. Rodriguez. Could I just clarify that one point?
    Mr. Lungren. Well, let me just ask Mr. Glaize, it is 
essential to your program, Mr. Glaize, that they be put on the 
path toward citizenship, as opposed to another type of legal 
status?
    Ms. Lofgren. The gentleman's time has expired, so we will 
ask Mr. Glaize to respond.
    Mr. Glaize. Congressman Lungren, let me say thank you very 
much for your efforts to actually fix this problem.
    It is essential that the workers that are here now be 
allowed to have work authorization for a period of X number of 
years. The AgJOBS contemplates a fixing of the H2A program, 
which we have had lots of testimony here stating that--let's 
figure out to legally bring workers to pick these crops. That 
is of the utmost important.
    In the meantime, I cannot afford to lose a crop 1 year. 
Now, the status down the road, I think that is a part of our 
American willingness to accept immigrants in this country. And 
putting them at the front of the line, I agree with Mr. 
Rodriguez, no, they don't go to the front of the line. They 
will have work authorization for a period of years, and then 
they can seek their citizenship at that time.
    Mr. Lungren. Okay. Thank you, Madam Chair.
    Ms. Lofgren. Thank you. The gentleman's time has expired.
    I recognize the gentlelady from California, Ms. Sanchez, 
for 5 minutes.
    Ms. Sanchez. Thank you, Madam Chairwoman.
    And thank you to all of the panelists who are here today.
    I have heard so many interesting and somewhat, I think, 
outrageous claims today, I kind of don't even know where to 
begin with some of the questioning. But I just want to start by 
making an observation.
    If, as some members of the panel have suggested, these 
immigrant workers are taking jobs that Americans want, then I 
would expect that there would be zero unemployment in the 
agricultural sector, and I would expect that many, many 
Americans would be rushing during this tough economic time to 
take these jobs.
    And yet, Mr. Rodriguez, how many people did you say 
actually inquired about going out to take a job in the fields?
    Mr. Rodriguez. We had about 3 million hits on our Web site 
since June 24th. Of that group, 8,600--8,600--were serious 
about trying to apply for it. And, of that group, we have 
documented seven people that are actually working out in the 
fields right now.
    Ms. Sanchez. And did those seven remain in that job?
    Mr. Rodriguez. As far as we know right now, they are still 
working there, yes.
    Ms. Sanchez. Okay. But there was a huge drop-off between 
the inquiries and the actual people who signed up and went out 
and did that work; is that not correct?
    Mr. Rodriguez. An incredible drop-off.
    Ms. Sanchez. Okay.
    And forgive me, but I am just going to add my 2 cents here. 
I think that the Take Our Jobs campaign, I have a hard time 
believing that if you just called it ``Take a Job'' campaign 
that those 8,000 people would all be working in the field 
today. But that is just my personal opinion. I don't think the 
semantics of what you call the campaign--as I think once people 
probably figured out what the work actually entailed, that is 
where the big drop-off came.
    Would you say that that is maybe an accurate assessment, 
Mr. Rodriguez?
    Mr. Rodriguez. Yes. And we were not trying to--we didn't go 
to any experts to try to design this campaign. As I mentioned 
earlier today in my testimony, it was farm workers who really 
suggested to invite people to come and work in the fields, 
because they were tired of hearing all the criticism that they, 
as farm workers, as immigrants, were taking away American jobs. 
So----
    Ms. Sanchez. Thank you, Mr. Rodriguez. And I am not trying 
to cut you off, but I am trying to get through some of these 
questions.
    Now, the next point that I find incredibly interesting is 
that I am hearing from colleagues on the other side of the 
aisle and some of the panelists that, well, the reason why 
Americans don't take these jobs is because, gosh, the pay isn't 
high enough and, you know, the working conditions are bad.
    And I think it is interesting because--correct me if I am 
wrong--most agriculture workers in this country aren't covered 
by things like workers' compensation law, minimum wage law, 
overtime law, right to organize. Am I correct in stating that, 
Mr. Rodriguez?
    Mr. Rodriguez. Yes, you are.
    Ms. Sanchez. So it seems to me that if you really want the 
wages to go up in this industry, as you say you do, so that 
American workers would want this job, that my colleagues on the 
other side of the aisle and some of the panelists would really 
be advocates for labor reform, particularly in the agricultural 
sector.
    And yet, I have in front of me some information regarding 
some votes that we have taken here in Congress on specific 
things that would help raise wages for workers, like H.R. 2, 
the minimum wage increase, increasing the Federal minimum wage 
by $2.10 over 2 years, from $5.15. And I note that Mr. King, 
Mr. Gallegly, and Mr. Lungren all voted ``no'' on that 
particular bill. And I just find it, sort of, contradictory 
that they would be saying the wages need to be higher, and yet, 
when we try to raise the wages for workers across this country, 
they are voting ``no.''
    I want to get on to Mr. Glaize----
    Mr. Lungren. Will the gentlelady yield?
    Ms. Sanchez. I will not. I have some questions that I want 
to ask.
    Mr. Glaize, you spoke of the number of farms, including 
many in my home State of California, who have moved or are 
considering moving their operations overseas. And I would like 
for you to talk in a little bit greater detail about why a farm 
would move operations to another country, and what that does to 
our local economies in this country when those farms relocate, 
and how can we reduce the incentive for those farms to relocate 
in other countries.
    Mr. Glaize. Thank you, Congresswoman.
    Well, essentially, I am a small-business person, and I need 
to make a profit. I operate by supply and demand, world supply. 
And, essentially, if a farm is going to not be able to grow, 
harvest, pack, and sell its crop at a profit, then that farmer 
is going to go out of business.
    The foods that that farmer was producing will come from 
somewhere else. Our apples compete with Chilean apples right 
now. The price of our Galas are low right now, probably by 
about $2 a box, because of the Chilean apples that are in the 
market.
    If I cannot continue to grow and produce apples and sell 
them at a profit, I will go out of business. I won't have 
anything to pass on to the kid that was holding up the picking 
bucket.
    Ms. Sanchez. And everybody who is supported by that 
business here in the United States would lose their jobs, as 
well. Is that correct?
    Mr. Glaize. Oh, certainly. By the time our--we invest $1.6 
million just to get our crop ready on the trees. That is spread 
out locally in our community.
    Ms. Sanchez. Thank you.
    And final question, and I know I am short on time. Mr. 
Colbert, after your experience of working in the fields, what 
they would have to pay you to do that as a career day-in and 
day-out, 365 days of the year?
    Mr. Colbert. Whatever the SAG minimum wage is.
    Ms. Sanchez. Thank you. And I yield back.
    Ms. Lofgren. Thank you. The gentlelady's time has expired.
    We turn now to the Ranking Member, Mr. King, for his 5 
minutes.
    Mr. King. Well, thank you, Madam Chair.
    As I listened to the testimony here, I have accumulated a 
whole list of things that that need to rebutted, not the least 
of which is the minimum wage position.
    It is pretty interesting to me to hear the testimony of Mr. 
Glaize, that he pays his workers $93 a day for 9 hours' work. 
Now, that works out to be $10.33 an hour. And to hear Ms. 
Sanchez say that there are not laws that apply to ag workers--
and it is true, to some degree--and we need to just increase 
the minimum wage so that we can increase the wages to farm 
workers and be accused of being, let me say, inconsistent with 
the rationale. But I think the evidence is right here before 
us. If Mr. Glaize is paying what he says--and I absolutely 
believe him--and the minimum wage in the United States is 
currently $7.25 an hour, there must be a reason Mr. Glaize pays 
more than the minimum wage. And that is called supply and 
demand, as I have heard some of the witnesses reference. And I 
am sure Dr. Swain would address that within that context.
    I have said labor is a commodity. I have spent a lot of 
time as labor. I have spent more time as labor than anybody 
else on this panel. And it has always been supply and demand. 
And I have looked at the people that competed against me for 
those jobs, and I have known that I had to do a better job and 
show up on time and produce more work per hour or somebody was 
going to be looking over my shoulder to take that job. And I 
started on the pipeline in the construction business with those 
workers that dug ditch by hand, and if they got tired and 
couldn't dig and they had to stop and rest on the shovel, 
somebody was sitting on the dirt pile to come down and take the 
shovel out of their hands. These were Americans lined up to 
take jobs.
    The back-of-the-line piece of this, Mr. Rodriguez's 
testimony that they would go to the back of the line--and I 
think it is important that we understand where that line is. If 
you look at the lines in each of the countries where people 
have lined up to legally apply to come to America--and I have 
great respect for those who want to achieve the American 
dream--but that line is about 50 million long, if you add up 
the accumulated visas out there in the various varieties that 
we have. And the waiting period of time from Mexico, I don't 
know that I can speak to that factually, but we know that is 
several years, and it might be 7 or 8 or 9 years. And it is 
about that period of time even to bring in a family member 
from, let's say, a foreign country.
    So the back of the line--if we are going to talk about the 
back of the line, it is behind the 50 million. It is not in 
front of the 50 million.
    And then I often hear the statement that they would--within 
the context of the broader version of comprehensive immigration 
reform, that they would learn English and pay a fine. And the 
fine started out at $500 and went to $750 and then perhaps 
$1,500. Learning English is not a penalty. It is a good thing. 
Wherever in the world you have English, you can go anywhere in 
the world and get a job. So I would say that is a benefit to do 
that.
    The 72-hour rule, yes, it exists, but think about--this 
subject is--not specifically addressed here in this testimony, 
this subject that we are talking about is the rule of law. And 
the 72-hour rule says Mr. Lungren has 10 seconds to know that a 
bill is coming up because the rule is waived or ignored or not 
respected. When we don't respect the rule of law, that is the 
product that we get. And so, I will say the central argument is 
an essential pillar of American exceptionalism, the rule of 
law. And we are trying to figure out how to reconcile it after 
it has been ignored for so long.
    And I look back at--perhaps Dwight Eisenhower was the last 
President to advance an Administration that strictly enforced 
immigration law. And it has diminished under each 
Administration since that period of time. And we had a good 
program in the Bracero Program. But the 1986 amnesty act said, 
this will be the last amnesty ever--the last amnesty ever. And 
I remember Ronald Reagan at least was honest when he said, ``I 
am signing the amnesty bill, but we are going to enforce 
immigration law.'' And I believed him. And I still have those 
records that I kept with the applicants that came in on their 
I-9 forms, but nobody ever showed up to look at those 
documents.
    And the enforcement diminished Administration after 
Administration. And now, there has been bred a contempt for the 
rule of law. And we are here with a debate before this panel 
that seems to argue that we should just simply disregard all 
the lawbreaking that is going on because we haven't enforced 
the law. And now the argument that I have heard is we can't 
enforce the law.
    Well, we can, we must. We must reestablish the rule of law. 
And I don't suggest that we go out and chase people down and 
round them up and put them in train cars to go back to their 
home country. I suggest that we enforce the law at the local 
level, with cooperation of local law enforcement officials, in 
the spirit of the 287(g) program.
    I suggest that we look to each other, our neighbors, and 
understand that, if there is someone standing on the line, on 
the clock, being paid, and they are unlawfully working in the 
United States, then they are taking a job that a legal worker 
can do, whether they are a legal immigrant or whether they are 
an illegal immigrant.
    And this country has an oversupply of underskilled labor. 
That is why the people that grew up around me that decided they 
didn't want to go on and get a higher education can no longer 
punch the clock and make the same money that an educated high 
school teacher does. It is half the money, in my neighborhood.
    And I would just conclude, as I watch the gavel start to 
move here. Rather than ask a question, I will just make this 
point.
    I watched Mr. Colbert--I did finally watch you. I saw the 
video. I watched you picking beans, and I believe you did. And 
I also watched you, you said, packing corn. But I was watching 
you unpack corn. And I know you don't do that out there on the 
cornfield. It gets packed into the crate and gets shipped out 
here. So I am just going to presume they ran the film 
backwards; you were making productive work.
    And I would conclude my statement and yield back the 
balance of my time.
    Ms. Lofgren. The gentleman's time has expired.
    Mr. Conyers. Madam Chair, could Mr. Colbert be given a 
minute or 2 to respond?
    Mr. King. Mr. Chairman, I didn't actually ask a question, 
so--and I don't think I disparaged him. I think I actually 
complimented him.
    Ms. Lofgren. Well, perhaps Mr. Gonzalez will give the 
witness a minute of his time.
    Mr. Gonzalez is now recognized for 5 minutes.
    Mr. Gonzalez. Mr. Colbert, do you wish to respond to Mr. 
King?
    Mr. Colbert. I didn't really understand the statement. It 
is confusing.
    Were you implying that I was not actually doing the work 
that I was depicted as doing?
    Mr. King. Would the gentleman yield, Mr. Gonzalez? Would 
the gentleman yield?
    Mr. Gonzalez. Let's suspend all those rules, just since we 
are dealing with Mr. Colbert. He is just trying to respond to 
some sort of an opening statement or statement. You all can 
just talk to each other.
    Ms. Lofgren. So the gentleman will yield here.
    Mr. Colbert. That would be nice.
    Mr. Gonzalez. Sure.
    Mr. King. Thank you, Mr. Gonzalez, for yielding.
    I only made the point that, in watching the film on YouTube 
of the event of you and Chair Lofgren working there on the 
farm, that as I watched you handling corn--in Iowa, we know 
corn, and that is what we do.
    Mr. Colbert. I know.
    Mr. King. And I know that actually there is corn that gets 
brought into Iowa, sweet corn, in wooden crates, like you were 
working with, that are wired together once they are full. And I 
thought it was curious that on the farm where you harvest the 
corn I was watching you actually unload a crate, rather than 
load the crate. So it was curious to me that it looked like the 
corn was going the wrong direction, and I only presumed they 
must have run the film backwards. That was my point.
    Ms. Lofgren. Well, I think that the question has now been 
cleared.
    Mr. King. And I yield back to the gentleman, Mr. Gonzalez.
    Ms. Lofgren. Mr. Gonzalez has the time.
    Mr. Gonzalez. So, Mr. Colbert, which direction was the corn 
going?
    Mr. Colbert. Well, I want to make sure that if I get this 
answer wrong I can't be held for perjury.
    I was packing corn. I was a corn packer. And I packed it, I 
put it in the trucks, and I iced it down to keep it at 38 
degrees so it wouldn't go through the process where the sugar 
turns into starch. And we got that corn out that day.
    I actually was a corn packer. And I know that term is 
offensive to some people because ``corn packer'' is a 
derogatory term for a gay Iowan. And I hope I didn't offend 
anybody.
    Ms. Lofgren. Mr. Gonzalez?
    Mr. Gonzalez. Oh, I definitely will reclaim my time, at 
this point.
    Dr. Swain, because of your background, your studies, your 
accomplishments, which are incredible, you have an idea about 
legal principles. And we are up here and we espouse them all 
the time. Most of us here are lawyers on this particular 
Committee. And you will hear the ``rule of law,'' ``nation of 
laws, not men.'' There is another one; it is ``equal justice 
under the law.'' And I think we are familiar with that.
    What you are going to be hearing from my colleagues on the 
other side, some of which are from the same State of Texas 
where I was born and raised, even the same city, is that the 
only solution for anyone here that doesn't have legal status, 
that is an ``illegal,'' is deportation.
    Do you agree with that, that one size should fit all, one 
punishment for all, and that is, you are not here legally, you 
shall be deported?
    Ms. Swain. It is my understanding that the cases are heard 
individually by an administrative judge, and that judge has the 
discretion to look at particular circumstances. I know that 
there are people who accidentally fall into illegal status, and 
I think those----
    Mr. Gonzalez. Oh, no, no. We are talking about a farm 
worker that came here in violation of our laws to pick our 
fruits and vegetables. It wasn't a mistake.
    Ms. Swain. I think that if a person came here, deliberately 
breaking the law, and they get caught, they should expect to 
bear the punishment. And if the judge says that punishment is 
deportation----
    Mr. Gonzalez. No, no. The judge really doesn't--I am just 
telling you from my experience, because I come from a city that 
has many, many immigration cases. I have been told that if you 
came here illegally, misrepresenting your status, came here in 
any way, you are barred from remaining in this country. So 
let's just assume I am right and that a judge has no 
discretion. Do you believe that that judge should have any 
other discretion other than deportation?
    Ms. Swain. I think that we should enforce the laws on the 
book or we should change them if we are uncomfortable with 
enforcing them.
    Mr. Gonzalez. I agree with you. And that is what we are----
    Ms. Swain. As long as there are laws are on the books, we 
have to enforce them.
    Mr. Gonzalez [continuing]. Trying to do with comprehensive 
immigration reform----
    Ms. Swain. Well, the problem----
    Mr. Gonzalez [continuing]. That would stay true to our 
principle of equal justice under the law. Sometimes the laws 
don't work anymore; they are not applicable.
    Ms. Swain. I agree.
    Mr. Gonzalez. They don't serve a social or human purpose. 
That is what we are trying to address.
    But if you are of like mind with my colleagues on the other 
side of the aisle, then let me ask you this----
    Ms. Swain. Could I say something?
    Mr. Gonzalez. Let me just finish, because Mr. Colbert and 
Mr. King used most of my time.
    Ms. Swain. I am sorry.
    Mr. Gonzalez. If you have a death penalty, what I call the 
death penalty--and that is the ultimate punishment, and that 
is: You are here illegally, you get deported. But there are two 
parties to this action.
    Why don't we close the business that is employing these 
individuals? We slap them on the wrist. We give them a small 
fine, place them on some sort of probation. But, truly, if you 
treat the employee in the absolute, why wouldn't you do that to 
the employer? Why do we have a range of punishment for the 
employer, but we don't have a range of punishment for the 
employee?
    Because you are telling me who is being exploited and who 
is being victimized in a lot of instances in this country--and 
you seem to agree on that principle, that wages are somehow 
depressed, working conditions can be deplorable. And, until 
they improve, we are not going to have a domestic labor market.
    Ms. Lofgren. The gentleman's time has expired.
    Ms. Swain. If it were up to me, I would throw the employers 
in jail. I think that they do get slapped on the wrist and that 
they are part of the problem and that that has to be addressed.
    And the problem that I have with the way the Democrats seem 
to be defining comprehensive immigration reform is that it 
seems to be--it doesn't include what I would consider 
comprehensive, that you would look at all the different aspects 
of what feeds illegal immigration. It just seems to be about 
amnesty. To me, ``comprehensive'' means you look at all aspects 
of the problem.
    Ms. Lofgren. The gentleman's time has expired. And I would 
turn now to----
    Mr. Gonzalez. Yeah, Madam Chair, I appreciate it, but that 
word of ``amnesty,'' especially coming from Dr. Swain, she 
knows better than using the word ``amnesty.'' But she is clear 
that she wants to put the employers in jail, and I appreciate 
that.
    Ms. Lofgren. The gentleman's time has expired.
    We turn to the gentlelady from California, Congresswoman 
Chu.
    Ms. Chu. Well, Ranking Member Smith questioned Mr. 
Colbert's expertise as a witness. However, I would like to 
point out that, in the past, Republicans have had witnesses 
such as Loretta Swit, who played ``Hot Lips'' Houlihan from 
MASH, to testify on crush videos; and that Republicans invited 
Clint Eastwood to testify before Congress about ADA lawsuits; 
and Republicans also invited Elmo to talk about music education 
at the House Appropriations Subcommittee on Labor/Health and 
Human Services.
    Well, on another note, Mr. Colbert, thank you for attending 
this hearing and highlighting the plight of farm workers. The 
situation is, indeed, dire.
    And I know from my State of California, I heard about the 
case of Mr. Asuncion Valdivia, who came from Mexico for a 
better life and took a job that few Americans wanted to do. 
Every day in the hot summer months, he picked grapes for 10 
hours straight in 105-degree temperatures. And then one day he 
fell ill. He fell ill and could not stand up. And Giumarra 
Vineyards, rather than calling the ambulance, told his son to 
drive Mr. Asuncion home. On the way home, Mr. Asuncion died of 
heat stroke, and his son had to watch his father die of a 
preventible heat stroke at the age of 53.
    And, in fact, this is only one of many stories like this. 
There have been 23 reported deaths since 2001. And those are 
only the reported deaths. But this was the last straw, and that 
is why I worked with Mr. Rodriguez and the UFW in carrying 
legislation to require water, shade, and rest periods on every 
farm so that outdoor workers could be protected.
    So, I am wondering, Mr. Colbert, did any of the farm 
workers that you picked with talk about working conditions 
having to do with heat, with water, shade, rest periods, any of 
those kinds of things?
    Mr. Colbert. No, we didn't talk--thank you very much for 
asking me the question, first of all. But, no, we didn't really 
talk that much. I tried to engage them in conversation, but I 
don't speak Spanish very well, and they seemed very busy with 
the beans and with the corn. And I tried to get them to sing 
field songs and that sort of thing, and they didn't seem to 
have any.
    And so I never really found out about what their working 
conditions were like, in terms of what medical services were 
available to them or what health care was available to them or 
what kind of breaks were available to them. They seemed to be 
working the entire time.
    Ms. Chu. Did you experience any of these issues pertaining 
to heat?
    Mr. Colbert. It was very hot. Yes, it was hotter than I 
like to be.
    Ms. Chu. And considering the conditions, why would any 
American worker want to work on jobs like this?
    Mr. Colbert. I don't know if Americans would or would not 
want to work on jobs like this. I believe that Americans are 
tough. I agree with the congressman, that Americans are tough 
and they do tough jobs.
    It is not a job I want to do, and not a lot of people took 
Mr. Rodriguez up on his offer. And it seems, from the 
statistics that my researchers found, that there is a lack of 
labor in parts of the United States, and that seems to say that 
Americans don't want to take these jobs. But I don't want to 
say definitively that they won't.
    Ms. Chu. Mr. Colbert, you could work on so many issues. Why 
are you interested in this issue?
    Mr. Colbert. I like talking about people who don't have any 
power. And it seems like one of the least powerful people in 
the United States are migrant workers who come and do our work 
but don't have any rights as a result. And, yet, we still 
invite them to come here and, at the same time, ask them to 
leave. And that is an interesting contradiction to me.
    And, you know, whatsoever you do for the least of my 
brothers. And these seem like the least of our brothers right 
now. A lot of people are least brothers right now because the 
economy is so hard, and I don't want to take anyone's hardship 
away from them or diminish it or anything like that. But 
migrant workers suffer and have no rights.
    Ms. Chu. Well, thank you for that.
    And, in response to Ms. Swain, I would say that, according 
to the most recent data, in 2007, 8.8 million Californians 
worked for minimum wage, many of them in undesirable jobs. 
According to your analysis, if we only paid Americans more, 
they would be willing to work in the fields, but 8.8 million 
are already taking that lower paycheck. We still don't see 
Americans flocking to work in the fields. And that, I think, 
says a lot.
    And, with that, I yield back.
    Ms. Lofgren. The gentlelady yields back.
    I will now recognize myself for 5 minutes.
    And I think this has been a very helpful hearing. You know, 
as I have listened to my colleagues, I have heard really a plea 
that we upgrade the conditions of migrant farm workers.
    And I have been thinking, as I was listening to Ms. 
Sanchez, that I might introduce a bill that provides for the 
rights of farm workers to organize as a labor union under 
national law. We have that in California. That we would make 
sure that farm workers, migrant farm workers, are covered by 
workers' compensation, the minimum wage laws, that they also 
are covered by the overtime laws.
    And I am hoping that when I do, that those who have spoken 
so passionately about the need to upgrade the conditions for 
farm workers will be among the first to ask to cosponsor that 
bill. And I will be working with Ms. Sanchez to do that.
    You know, in my career prior to being in Congress, I 
actually was an immigration lawyer at one time and I taught 
immigration law part-time. And I am very mindful that the laws 
are important but the Congress makes the laws.
    And, currently, for those individuals who wish to immigrate 
to the United States who do not have a college degree, we 
allocate 5,000 visas a year. So when people say you ought to do 
it the legal way, I think those individuals probably don't know 
that there are only 5,000 visas a year and we have 2 million 
farm workers.
    Now, I do think it is important that we make available 
first all jobs to the people who are here. But as the campaign 
of the Farm Workers has shown, there are some jobs that are not 
a good fit for people who are unemployed. And part of the 
problem here is that these are seasonal migrant jobs.
    And I was very pleased to go to New York and look, with Mr. 
Colbert, at the farm there. But I am mindful of my trip earlier 
this year to the strawberry farm outside of my district, where, 
luckily, the farm workers are represented by the United Farm 
Workers. Those migrants farm workers earn $18,000 to $19,000 a 
year. They have health care benefits. They have a pension plan. 
They are provided housing. And, in talking to their employer, 
they have been unable to get Americans to come take these jobs, 
because they are killer jobs. I mean, it is--I was out there 
picking those strawberries, and that is just a fact. We could 
say that is a good idea or a bad idea. That is the reality.
    In reading Mr. Glaize's testimony and understanding in 
California the number of farms that have simply folded and gone 
off farm, this has implications for the entire American 
workforce, upstream, downstream. We have three to four jobs 
that Americans are doing for every migrant farm worker who is 
here. And so, if those farms close and go offshore, it is not 
just the farm workers who are displaced; it is the four 
Americans who are dependent on those farm workers who are 
displaced. So this is a very serious issue.
    I would just like to thank each one of our witnesses for 
being here. A lot of people don't realize that the witnesses 
who come before Congress are volunteers. They come, I mean, 
just as volunteers to help make a better country, to help the 
Congress understand an issue better.
    And so, each one of you, as a volunteer, has done that 
today. I thank you for doing so.
    I thank the Members for their participation.
    I would note that the record will remain open for 5 
legislative days so that Members may submit material.
    And, further, that Members may have additional questions 
for the witnesses that will also be submitted within 5 days. 
And if that should occur, we would request respectfully that 
the response be forthcoming.
    With that, I would thank all of the witnesses and Members 
for their participation and would adjourn this Committee.
    [Whereupon, at 11:45 a.m., the Subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
